<html>
<title> - DEFENSE SECURITY SERVICE: MISSION DEGRADATION?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             DEFENSE SECURITY SERVICE: MISSION DEGRADATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2001

                               __________

                           Serial No. 107-40

                               __________

       Printed for the use of the Committee on Government Reform









  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                        U.S. GOVERNMENT PRINTING OFFICE
77-352                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                   Vincent Chase, Chief Investigator
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2001....................................     1
Statement of:
    Lieberman, Robert J., Deputy Inspector General, Office of 
      Inspector General, Department of Defense; Arthur L. Money, 
      Assistant Secretary of Defense for Command, Control, 
      Communications and Intelligence, Department of Defense, 
      accompanied by J. William Leonard, Deputy Assistant 
      Secretary of Defense for Security and Information 
      Operations, Command, Control, Communications and 
      Intelligence; and General Charles Cunningham, Director, 
      Defense Security Service...................................     5
Letters, statements, etc., submitted for the record by:
    Lieberman, Robert J., Deputy Inspector General, Office of 
      Inspector General, Department of Defense, prepared 
      statement of...............................................     8
    Money, Arthur L., Assistant Secretary of Defense for Command, 
      Control, Communications and Intelligence, Department of 
      Defense, prepared statement of.............................    25
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3












             DEFENSE SECURITY SERVICE: MISSION DEGRADATION?

                              ----------                              


                         FRIDAY, MARCH 2, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, and Kucinich.
    Staff present: Lawrence J. Halloran, counsel; J. Vincent 
Chase, chief investigator; Alex Moore, fellow; Robert Newman 
and Thomas Costa, professional staff member; Jason Chung, 
clerk; David Rapallo, minority counsel; and Earley Green, 
minority assistant clerk.
    Mr. Shays. The hearing will come to order.
    Accused spy Robert Hanssen knew he had at least 5 years 
between the background checks required for his clearance to 
access top secret information at the FBI. He could rely on that 
blind spot in our national security defenses to help him avoid 
detection.
    At the Department of Defense, the risks posed by delays in 
personal security investigations [PSIs], have been apparent for 
some time. The Defense Security Service [DSS], the agency 
responsible for screening DOD personnel who have access to 
national secrets, has made only marginal progress over the past 
3 years reducing a backlog of almost half a million overdue 
reinvestigations.
    In February 2000, DSS told us the backlog would be under 
active review, if not resolved, by the end of 2001. Last 
September, the target had slipped a full year. DSS did not 
anticipate having all overdue investigations logged into its 
system until the end of 2002. Today, even that goal is in 
doubt.
    Once entered into the troubled DSS computer system, an 
actual investigation may not begin for months. Many--too many--
investigations take almost a full year to complete. That means 
individuals granted top secret clearances in 1994 might go 9 
full years before completion of any detailed scrutiny of their 
fitness to handle classified information.
    A recent internal review of DSS status and options 
ominously entitled Mission Degradation called for ``bold 
action'' to meet this long-festering threat to national 
security. According to the report, current DSS processes and 
plans are ``not meeting the Department's needs to provide 
timely investigations and clearances to our soldiers, sailors, 
airmen and marines; DOD civilians and our industry 
contractors.''
    DOD's response to the draft report seems more blase than 
bold. Pentagon leadership responsible for DSS oversight, the 
office of the Assistant Secretary of Defense for Command, 
Control, Communications and Intelligence [C3I], persists in the 
hope current spending plans will produce a so-called ``steady 
state'' DSS capable of digesting the entire backlog and all new 
clearance requests.
    That hope of a steady state seems based on a very rosy view 
of a very uncertain future. Neither DSS nor their DOD 
customers, including the military service branches, can 
systematically or accurately project future demand for 
clearances. DSS continues to spend millions stabilizing a 
computerized case control system that may never be able to meet 
the need for timely, accurate investigations. The number of 
pending cases is up, not down. The average time required to 
complete both investigations and reinvestigations for top 
secret clearances is up, not down.
    Most troubling are proposals to compromise investigative 
standards, such as the expanded use of interim top secret 
clearances. Other proposals might solve some aspect of the 
problem at DSS only by shifting the burden to another agency, 
with no net improvement, and potential degradation, in 
executing the security clearance mission.
    As we have in the past, and will undoubtedly be required to 
do in the future, we asked DOD and DSS leadership to describe 
their progress and their prognosis for this critical national 
security activity. We appreciate their being here this morning, 
and look forward to their testimony--an interesting dialog.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T7352.001
    
    [GRAPHIC] [TIFF OMITTED] T7352.002
    
    Mr. Shays. At this time I would like to recognize Mr. 
Dennis Kucinich, who is the ranking member, in this committee 
an equal partner in what we do and how we do it.
    Mr. Kucinich. Thank you, Mr. Chairman. For me, it is an 
honor to have a chance to work with you again, and I look 
forward to a cooperative relationship, and I am going to have 
some comments a little bit later on. I would be pleased to join 
you in getting right into the hearing.
    Mr. Shays. I thank, my colleague.
    I would like to recognize Mr. Putnam, who is also an equal 
partner in this process, the vice chairman.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. I appreciate your 
interest in this topic and, I appreciate the gentlemen coming 
here to help us shed some light to help us prevent matters like 
this from occurring in the future. I look forward to their 
testimony.
    Mr. Shays. Thank you very much. Mr. Lieberman, we are going 
to have you speak, and then Mr. Money. All four are going to 
participate in the dialog.
    We will ask you to stand and will swear you in as we do for 
all of the witnesses.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much.
    Gentlemen, it is nice to have you here, this, the first 
hearing of probably 40 to 50 hearings we will have in this 
committee in the next 2 years. I welcome you here. I believe 
this is a very important hearing and I am happy that you are 
the first to start us off.
    Mr. Lieberman, we will begin with you and then Mr. Money.

  STATEMENT OF ROBERT J. LIEBERMAN, DEPUTY INSPECTOR GENERAL, 
 OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF DEFENSE; ARTHUR L. 
  MONEY, ASSISTANT SECRETARY OF DEFENSE FOR COMMAND, CONTROL, 
    COMMUNICATIONS AND INTELLIGENCE, DEPARTMENT OF DEFENSE, 
 ACCOMPANIED BY J. WILLIAM LEONARD, DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE FOR SECURITY AND INFORMATION OPERATIONS, COMMAND, 
 CONTROL, COMMUNICATIONS AND INTELLIGENCE; AND GENERAL CHARLES 
         CUNNINGHAM, DIRECTOR, DEFENSE SECURITY SERVICE

    Mr. Lieberman. Thank you, Mr. Chairman.
    Mr. Chairman, as you know from your hearings last February 
and September, the ability of the Department of Defense to 
comply with Federal guidelines on security clearances and to 
efficiently carry out the many investigations needed annually 
for initial clearances or updates virtually collapsed between 
the late 1990's. Specific actions over the last 2 years to turn 
things around have included, first, replacing the Director of 
the DSS. Second, outsourcing a large percentage of the 
investigative workload to the Office of Personnel Management 
and contractors. Third, turning project management 
responsibility for the case control management system over to 
the Air Force. Fourth, establishing goals for gradually 
eliminating the backlog of several hundred thousand 
reinvestigations; and, fifth, requiring frequent DSS reports to 
Secretary Money's office to show progress against the many 
hundred thousand incomplete investigations.
    Three weeks ago Secretary Money's office circulated an 
internal report calling attention to shortfalls in execution of 
the DOD spend plan which calls for drastically improved 
turnaround times for investigations and eliminating both 
backlog requests and investigations by September 2002.
    The report concluded that bold action was needed because 
performance reports for the first 4 months of the 24-month plan 
showed insufficient progress. If DOD fails to achieve its 
goals, continued degradation of a wide variety of Defense 
missions would result.
    The investigation phase of the clearance process is 
currently the most troubled. It is important to keep in mind, 
however, that there are risks and issues across the spectrum of 
activities involved in the security clearance process. We have 
reported various front-end problems among the hundreds of 
offices that make requests for clearances. For example, there 
has been a lack of reliable estimates on how many clearances 
are actually needed and what the resulting inflow of requests 
for initial investigations and periodic reinvestigations will 
be.
    Investigation and adjudication organizations obviously 
cannot determine their resource requirements and process 
options without receiving reliable workload estimates. 
Likewise, I understand that over 300,000 overdue periodic 
reinvestigation requests have not been submitted. This has 
dropped from an estimated 500,000 a year ago, but it is still a 
huge figure.
    Once requests for investigations or reinvestigations are 
made, timely yet thorough investigations are needed. A second 
backlog, cases pending in the DSS, amounts to well over 400,000 
cases currently. I will return to that in a moment.
    Following investigations, there is a crucial adjudication 
phase for each case when derogatory information has been 
reported. The GAO, my auditors and the media have raised issues 
concerning the quality and consistency of adjudication 
decisions, the training of adjudicators and their capacity to 
handle increased workload. There is considerable potential for 
a third backlog here, if the adjudicators cannot keep up with 
the input to them from the investigators.
    To the individual, the contractor, or the DOD office 
awaiting confirmation of update, it makes no difference how 
many places in the pipeline are clogged or where the problems 
lie. The bottom line is that their needs are not being met.
    In my written statement, I emphasize our particular concern 
about top secret initial investigations and period 
reinvestigations. Top secret clearances are intended to protect 
the most sensitive national security data. The prospect of 
vital positions going unfilled because of delayed initial 
clearances or of those positions being held by individuals with 
grossly outdated clearances is clearly most disturbing.
    The trends in DSS productivity since this time last year 
have gone the wrong way as far as this most sensitive part of 
the investigative workload is concerned. Director Cunningham 
has worked to turn around the dire situation that he inherited, 
and Secretary Money's staff has been working to improve 
coordination between the many players and to solicit ideas for 
overcoming these tough problems.
    DSS performance is much better, but not yet good enough. 
Unless there are as yet unexplained prospects for dramatic and 
sustainable productivity improvement, I do think that 
additional management actions are needed, starting with the 
transfer of as many additional cases to OPM as they can handle.
    It would certainly make sense, as well, to rapidly evaluate 
the other suggestions listed in the February 8 DOD report and 
implement those with the most merit. In addition, there is a 
continuing need for heavy emphasis on completing the many 
actions under way because of previous recommendations to OSD 
and DSS.
    One reason why recent performance is not yet meeting 
expectations is that many of those actions are not yet fully 
implemented. If additional resources are needed, they must be 
approved in the very near future to have any effect on the 
current plan.
    With sustained management emphasis, I am confident that 
ultimately this problem is fixable, but the current goal of 
eliminating investigation backlogs by September 30, 2002, is 
clearly at risk. In addition, it is uncertain that all backlog 
cases will be adjudicated until well after that date.
    My staff and I stand ready to work with the Department's 
managers and the Congress to determine what adjustments to the 
current approach are feasible and necessary.
    That concludes my statement.
    Mr. Shays. Thank you, Mr. Lieberman.
    [The prepared statement of Mr. Lieberman follows:]
    [GRAPHIC] [TIFF OMITTED] T7352.003
    
    [GRAPHIC] [TIFF OMITTED] T7352.004
    
    [GRAPHIC] [TIFF OMITTED] T7352.005
    
    [GRAPHIC] [TIFF OMITTED] T7352.006
    
    [GRAPHIC] [TIFF OMITTED] T7352.007
    
    [GRAPHIC] [TIFF OMITTED] T7352.008
    
    [GRAPHIC] [TIFF OMITTED] T7352.009
    
    [GRAPHIC] [TIFF OMITTED] T7352.010
    
    [GRAPHIC] [TIFF OMITTED] T7352.011
    
    [GRAPHIC] [TIFF OMITTED] T7352.012
    
    [GRAPHIC] [TIFF OMITTED] T7352.013
    
    [GRAPHIC] [TIFF OMITTED] T7352.014
    
    [GRAPHIC] [TIFF OMITTED] T7352.015
    
    Mr. Shays. I was a little derelict in not welcoming our 
witnesses and giving the titles and so on just for the record, 
and I would like to do that now. We have heard from Mr. Robert 
Lieberman, acting Inspector General, Office of Inspector 
General, Department of Defense. We will hear from Mr. Arthur 
Money, Assistant Secretary of Defense for Security and 
Information Operations Command, Control, Communications and 
Intelligence, Department of Defense, accompanied by Mr. J. 
William Leonard, Deputy Assistant Secretary of Defense for 
Security and Information Operations Command, Control, 
Communications and Intelligence, Department of Defense. Also 
joining us is General Charles Cunningham, Director, Defense 
Security Service.
    I just want to get some housekeeping done. I ask unanimous 
consent that all members of the subcommittee be permitted to 
place an opening statement in the record and that the record 
remain open for 3 days for that purpose. Without objection, so 
ordered.
    I ask unanimous consent that all witnesses be permitted to 
include their written statement in the record and without 
objection, so ordered.
    Also I welcome Mr. Clay from Missouri.
    Mr. Clay. Good morning.
    Mr. Shays. If you have a statement for the record that you 
would like to put in----
    Mr. Clay. I certainly do.
    Mr. Shays. If you wanted to read it--we will have the 
testimony, and if you want to read it before you ask questions, 
we will do that.
    Mr. Clay. Thank you.
    Mr. Shays. Mr. Money.
    Mr. Money. Thank you, Mr. Chairman. Just to clarify my 
title, it is Assistant Secretary of Defense for Command, 
Control, Communications and Intelligence. Buried in that is the 
Security and Information Operations which Mr. Leonard is the 
Deputy Assistant Secretary for.
    Mr. Shays. You have responsibility for a whole host of 
different units and this is one unit?
    Mr. Money. Absolutely.
    Mr. Shays. In the end, the buck stops with you?
    Mr. Money. That's correct. When you read my title, you 
added Security and Information Operations. That is subsumed, 
but it is not the exact title.
    Mr. Chairman, members of the subcommittee, I, along with 
Mr. Bill Leonard and Lieutenant General Chuck Cunningham, truly 
appreciate this opportunity to appear here before you today, to 
in fact report on the status of the Department of Defense's 
efforts to eliminate this security investigation backlog.
    In doing so, I will address the process and management 
changes that the Department has initiated to resolve the 
immediate problems and will review with the committee ideas 
that we have under consideration for improving the quality, 
speed, and reliability of background investigations.
    At the last hearing, last September, all DOD could show for 
all the efforts that had been accomplished was that there was a 
continuing increase in the backlog, but that increase was 
slowing down.
    Since that time, we have turned the corner and can 
demonstrate a measurable decrease in backlog that peaked 
roughly in October 2000 when the decrease in backlog-growing 
turned into actual backlog-decreasing--October 2000. 
Nonetheless, we recognize that we are not yet on the glide path 
that will result in no backlog in accordance with the GAO 
metric of eliminating the backlog by September 30, 2000. So I 
agree with the Inspector General; however, I am confident and 
hope in the next few moments to display that confidence on how 
we can meet that goal.
    Progress in the backlog reduction, again since the last 
hearing, I can report to you that the Department has made 
significant infrastructure and process improvements. As a 
result of these changes or improvements, the number of pending 
investigations at DSS has been reduced to roughly 434,000. This 
is a net decrease of roughly 70,000 from where we were in the 
October 2000 timeframe.
    Furthermore, the number of overdue periodic 
reinvestigations that have yet to be submitted has been 
reassessed to be roughly 317,000.
    Finally, we are fielding a Department-wide capability known 
as the joint personnel adjudication system [JPAS]. This is a 
real-time status and will give you real-time status of overdue 
clearances, and consequently, we will have a much more accurate 
projection of the backlog.
    In summary of where we are today with respect to the plan 
that was implemented in October 2000, which leads to a 
September 2002 elimination of the backlog, the Department plans 
to eliminate that backlog and in doing so, we have issued the 
following. We have established submission targets for all 
components. We have leveraged additional capabilities by 
partnering with OPM. We have finalized the plans, and as I 
stated, have started JPAS which will be installed and up and 
running by September of this year. We have created a process 
initiative guidance to the components' services and agencies to 
ensure that the most critical and mission-essential 
investigations are prioritized by them.
    So since that last hearing here, the Deputy Secretary of 
Defense has chartered yet another independent group, an 
overarching, integrated product team to validate the plan and 
to reassess the backlog. They have come up with six conditions 
of success, metrics if you will, which I will report on during 
the Q & A.
    With that, though, there is progress being made. I still 
have concerns, and I am not satisfied with the progress to 
date; and in this regard, agree with the IG's report. Some of 
the reasons for this go as follows.
    First, we are still continuing and experiencing case load 
imbalance between DSS and OPM, and we will talk more about 
remedies on that.
    Second, we are--in order to ensure the proper mix of high 
priority cases in DSS, a number of software changes need to be 
implemented into the current case management system. These 
include modifying CCMS, that is, the case management system, 
and field procedures in order to identify high-priority 
incoming cases and manually identify and modify cases that are 
already in the system. This will come out to be a very 
important problem that we are addressing and that will come 
out, I am sure, in the Q & A. But I would like to report that 
CCMS is stable versus where we were in the previous sessions, 
but we do need to add a few new improvements.
    Fourth, I would like to say that OPM is beginning to 
experience some increases in completion time on the cases they 
have. This is no slam at OPM; this is just due to the backlog 
they are starting to experience and the efforts to work off the 
investigations.
    Finally, I would like to report that adjudication--after we 
go through investigations, then we have adjudications to take 
place--they are keeping up with the output. However, in some 
areas we need to rebuild the adjudicators, in the services in 
particular. Those things are all quantitative measures, but I 
want to emphasize quality here is still the first and most 
important thing.
    National security is the first and most important thing, 
not numbers. I can attest now, or I am sure you will ask me, 
that I don't believe national security has been diminished one 
iota. In fact, I believe it has been increased because of the 
quality of these investigations. Readiness has taken the brunt 
of the quantitative problems. The quality of DSS's 
investigations has improved because of strict adherence that 
General Cunningham installed on security standards and 
evaluations and, in fact, in the training of the right people.
    In addition, the reason this hearing is timely is, we have 
just now concluded the first quarter's review of the progress 
on the plan that was implemented in October 2000. What that 
shows after the first quarter review is that we need to move 
component-identified, high-priority requirements to OPM 
consistent with the plan. There is an imbalance, as I 
mentioned, there.
    We need to expedite the initiation of cases prior to the 
service members' being transferred or deployed overseas. Once 
they go overseas, that complicates the investigation process 
and further lengthens it.
    We need to review and modify the procedures to make sure 
that a timely and appropriate process of interim clearances is 
also conducted.
    Finally, we are developing--and I think this answers maybe 
your opening remarks, Mr. Chairman, about the Hanssen case. I 
have long been on record that we need to go to aperiodic 
reinvestigation. We cannot get there until we get this backlog 
of periodic investigations over with, but I support the idea of 
going to aperiodic security investigation to alleviate the 
problem that you alluded to in your opening statement.
    I believe we can do this with aperiodic reinvestigations, 
using the new processes of data mining and relevant information 
sources such as criminal histories, foreign travel, credit 
records and so on; in fact, using what is available today in an 
information technology standpoint.
    In closing, I would like to ask for your help. This 
committee can in fact help us. You have helped us in the past, 
and we will ask for more; and this is the beginning of that. 
DSS needs automated access to State and local government 
criminal history records akin to what law enforcement agencies 
have today.
    Second, we request that Congress eliminate the artificial 
cap on counterintelligence polygraph examinations, and 
overall--I will submit other ideas later on on the aperiodic 
reinvestigation area, but overall with your guidances and the 
actions that I have outlined here briefly and will expand on, I 
remain confident that the Department can meet the stated goal 
of reducing the backlog to roughly 150,000 cases and/or 60 
working days by September 2002.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much, Mr. Money.
    [The prepared statement of Mr. Money follows:]
    [GRAPHIC] [TIFF OMITTED] T7352.016
    
    [GRAPHIC] [TIFF OMITTED] T7352.017
    
    [GRAPHIC] [TIFF OMITTED] T7352.018
    
    [GRAPHIC] [TIFF OMITTED] T7352.019
    
    [GRAPHIC] [TIFF OMITTED] T7352.020
    
    [GRAPHIC] [TIFF OMITTED] T7352.021
    
    [GRAPHIC] [TIFF OMITTED] T7352.022
    
    [GRAPHIC] [TIFF OMITTED] T7352.023
    
    Mr. Shays. I am sorry about not getting the titles right. 
It is important that you make sure that we are accurate.
    Mr. Money. It doesn't bother me personally. It is just for 
the record.
    Mr. Shays. I understand that. We are a little rusty up 
here.
    Mr. Kucinich, you have the floor. What we do in this 
committee, if we have three members, give or take, we allow 
them 10 minutes to start so they can ask questions.
    We put a 5-minute clock and then we roll it over to another 
5 minutes.
    Mr. Kucinich. Mr. Money, how many people work on an 
investigation?
    Mr. Money. How many people work on an individual 
investigation?
    Mr. Kucinich. Yes.
    Mr. Money. It depends on the complexity of the case. An 
example is, if you are an 18-year-old and you have lived in one 
place all of your life, probably one; if you have lived in 50 
places, it has a lot greater number of investigators.
    It depends on the case.
    Mr. Kucinich. Have you figured out a rule of thumb--maybe 
General Cunningham can answer that. How long does an individual 
investigation take?
    General Cunningham. Sir, again it varies with the type of 
investigation. The most challenging ones where there are 
subject interviews, as in top secret and where you might run 
into adverse information, these can take over a year.
    Our record on this is not good for many reasons that I 
think are fairly well understood in the committee here. We have 
a history of having cases as old as 2 years. Now we are working 
hard to get that pulled down, and we are targeting older cases 
to move them through, but it does take time to get that bubble 
through.
    Mr. Kucinich. If I may, I was wondering, General, how many 
people do you have working for you?
    General Cunningham. The Defense Security Service 2,600 
people. We have 1,250 field investigators.
    Mr. Kucinich. How many cases are outstanding now? How big 
is the backlog?
    General Cunningham. Our pending backlog right now is 
about--as we track it in the agency, it is about 435,000.
    Mr. Kucinich. OK. And that would----
    General Cunningham. That is coming down; 7 or 8 weeks ago 
we were up around 470,000. As our information technology is 
improving, for example, having brought on two new servers 
within the last 2 weeks, and increasing our computing 
capability and our ability to install better software and make 
changes, those times will come down.
    Chairman Shays in our last hearing made the point of what 
is the nominal time on a case; and for the investigative part, 
we know that we should be done in 60 to 120 days.
    Mr. Kucinich. It is an interesting thing, Mr. Chairman; I 
am doing the math here. If you used 435,000 cases of backlog, 
that is just your backlog, and you have 1,250 field 
investigators, that would come down to each person having to 
handle, I am not a math major, 340 cases a year on the average 
and that is about a case a day, a little more than a case a 
day, that is, if you don't get new ones. I am just wondering 
how do you ever work off a backlog with 1,250 field 
investigators.
    Mr. Money. Some of those cases are on automatic. This whole 
backlog--if I can expand on this for a moment, I would like to 
use a chart if that is acceptable to you.
    Mr. Kucinich. Sure. I am sure that everybody on the 
committee would like to see it.
    Mr. Money. Would you put this chart up?
    The backlog, there are at least two different backlogs that 
we need to clarify here. I will answer your question, or both 
of us will answer your question.
    The plan is over 2 years to reduce the periodic--these are 
periodic reinvestigation backlogs of 317,000; that is the best 
estimate we have today of what is out in the services and 
agencies that needs to be submitted, because after 5 or 10 
years they need to be reinvestigated based on the standards.
    Congressman, you can see over here there is a steady state 
of new investigations.
    Mr. Kucinich. Yes, that is what I was referring to.
    Mr. Money. Every person coming into the Navy and the Air 
Force today and if they are in the Army and in certain MOSs, 
certain job codes, will go through a suitability check which is 
roughly equivalent to a secret clearance. That is part of a 
million-something in new initiatives as new recruits come into 
the system.
    If you are already in the government and then need a 
clearance, you get additional investigations which take place, 
and over time there are new periodic reinvestigations.
    So when we talk about a backlog, this is the backlog over 
the next 2 years that we are going to look at, somewhere 
between a million and a half cases.
    Mr. Kucinich. I know my time is over.
    Mr. Money. I hope that I am not penalizing your time.
    Mr. Kucinich. We are all working for the same people. It is 
no problem. Excuse me.
    Mr. Money. Sure.
    Mr. Kucinich. This is very useful. I wish that staff had 
the chance to review this before the meeting. It would have 
been helpful, and I know that we will have plenty of time to go 
over this. I want to respect the flow of work in this 
committee.
    I would like to ask you, Mr. Chairman, I noticed in Mr. 
Money's remarks he referred to the backlog elimination has been 
accomplished in a number of different ways, including the 
hiring of people from the private sector. I would like to, if 
it is appropriate, Mr. Chairman, if this committee could be 
provided with a list of who they are hiring from the private 
sector to do these security background checks. Would that be 
appropriate?
    Mr. Shays. Are you hiring different firms? You are not 
hiring individuals, you are hiring firms?
    Mr. Money. Firms.
    Mr. Shays. How many firms have you hired?
    General Cunningham. Sir, augmenting investigations, we have 
two contractors who we brought on immediately in May/June 1999. 
Since that time we have brought on four new contractors.
    Mr. Money. These contractors have certified that they have 
the background and training to do these types of 
investigations. Frankly, a lot of them are retired people that 
have done this for the government.
    Mr. Shays. Would you explain what you mean by 
``certified?'' Certified by whom?
    General Cunningham. The specifications in the first two 
contracts was that they have 5 years investigative experience.
    The following five contractors that we brought on, we put 
funding in the statement of work for them to train the 
contractors, to train their people, their investigators, and to 
bring on experienced contractors, but we eliminated the 5-year 
requirement.
    We, DSS, work with each contractor on their training 
program, and their agents are subject to our evaluations.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Shays. Let me ask some questions. I am going to ask 
some basic stuff here to start.
    First, Mr. Money, we had a hearing on February 16, and we 
had a hearing on September 20 of last year, and this is the 
third hearing that we are having now, 2001.
    I am probably being a little facetious here, but you said 
in your statement when we were here last September, ``all we 
could show for our efforts was that the continuing increase in 
backlog was slowing down. Since that time we have turned the 
corner and demonstrate a measurable decrease in the backlog.'' 
We were turning the corner February 16, we were turning the 
corner September 20, and now we are turning the corner March 3. 
You take three corners and you end up back where you started.
    I am playing a little trick with you.
    Mr. Money. No, that is OK.
    Mr. Shays. You are a tolerant guy.
    Mr. Money. No, I think it is a good question. One might ask 
what the heck is going on here.
    If I may ask for your indulgence here, much like I did with 
Mr. Kucinich, I would like to spend a little time on a little 
background.
    Let me start roughly in April 1998, what is before that is 
water over the dam, if you will. Starting here in April 1998, a 
GAO investigation came into play. Frankly, I came into this 
position in February 1998. What happened before that in the 
roughly previous 10 years let me cover briefly, to put things 
into scope. The DSS and DOD were descoped to 40 percent.
    Mr. Shays. That means?
    Mr. Money. Downsized.
    Mr. Shays. Descoped.
    Mr. Money. It is a reduction in personnel and a 
commensurate reduction in budget. I will assert to you that the 
workload didn't diminish.
    In August 1995, there was a new Executive order that called 
for uniformity investigations and so forth. The ramifications 
coming out of that were huge, and I will talk to that in a 
minute.
    From 1996 to 1999 quotas were put on periodic 
reinvestigations. What that means, there were only so many per 
month that could be submitted. That further amplified the 
backlog of reinvestigations.
    In March 1997 an Executive order said that we will go from 
5 years on top secret investigations; secret which were 15 will 
now go to 10; and confidential, which were none, will go to 15. 
That created another backlog.
    GAO then got involved in April 1998, and for the next 16 
months, they worked on investigating issues, and the November 
1999 report-out was very dramatic and seminal, and I will talk 
to that when we get to November 1999.
    In October 1998, a program that had started in 1995, called 
case control management system [CCMS], was installed. Now, here 
was a major failure. It was installed without testing, and it 
was installed and the legacy system was turned off never to be 
turned back on, or never could be turned back on.
    Mr. Shays. How much did that cost us?
    Mr. Money. I don't know. I will get you a number.
    Mr. Lieberman. We have spent about $100 million so far on 
CCMS.
    Mr. Money. What happened in October 1998 was, essentially 
everything came to a grinding halt in that no cases were coming 
out due to software failure, system failures, and I will assert 
due to poor design on what CCMS ought to be.
    In January 1999, that Executive order that was issued in 
March 1997, but deferred, was then acted upon, and 400,000 new 
cases entered the backlog. In March 1999, actually this is one 
data point--between January 1999 and June there was continued 
degradation of performance, and frankly my staff and I didn't 
get as much insight as we should have. And you can blame me and 
my staff for not going deeper into the situation, but it was 
clearly much worse than was being reported.
    At that time in June I replaced the previous Director and 
installed General Cunningham here as the new Director of DSS.
    Also, that next day we started a recovery plan. That 
recovery plan actually was started way back here, but it was 
published and then-Deputy Secretary Hamre signed off and 
approved it.
    Resources started to apply or come into this situation 
here, plus personnel. We went to private industry and OPM, and 
we activated a lot of reservists to start working on the 
backlog.
    By October, we'd sent all civilian cases to OPM. By 
November, pursuant with some more work that was going on, and 
this is--it means something in the Pentagon, the Defense 
Management Council, which is the assistants and under 
secretary, along with the DEPSECDEF, got together and put more 
money into the equation, and also asked another OIPT to get 
together, this is an across-the-board integrated product team 
to investigate the backlog again.
    November 1999, GAO issued their report and we saw that as a 
watershed event because it pointed out independently that the 
problem wasn't being addressed. More resources and more 
personnel then were applied.
    In March 2000, DEPSECDEF asked for another OIPT to be 
formed, and at the same time we sent roughly, in a conceptual 
sense, 800,000 cases to OPM over the subsequent 2 years.
    This then came out to be called a new plan, or in our 
vernacular, a spend plan because the Comptroller had his 
fingerprints on this one.
    So, Congressman, when you asked what plan and why do we 
keep rebaselining, here is part of the answer. We had a plan 
back here called the Recovery Plan. It was redone and amplified 
and is now called the Spend Plan. When you heard back in 
February a year ago that we could do something by the end of 
2000, that was based on that plan, which was frankly 
unrealistic; that is why we've done one here called the Spend 
Plan.
    That aligns with the GAO request and has since been 
validated by yet another independent commission which says the 
September 2002 date is, in fact, achievable. That gave me more 
confidence that the plans that we had in place were in fact 
doable. This now, for references, is what Bob Lieberman says he 
is suspect of, is what Art Money thinks we can pull off if we 
have a few more things added to the equation here.
    Mr. Shays. With your accent, when you say ``spend,'' it 
sounds like spin.
    Mr. Money. And I hate the word spend, S-P-E-N-D.
    Mr. Shays. It still sounds like spin.
    Mr. Money. I don't like that word either, especially in 
this chamber. This is a comptroller's term.
    Mr. Shays. We are going to teach you how to say ``spend.''
    Mr. Money. Yes, sir, but I don't like it either. I don't 
want you to get the idea that this plan is to burn money. It is 
to execute down to a backlog of----
    Mr. Shays. I hear you. I don't want to delay Mr. Clay. We 
are going to have a few rounds here, but I feel that this was 
your time, not my time.
    Mr. Lieberman, I need a candid response to this chart you 
see here.
    Mr. Lieberman. Well, I have seen or we have done half a 
dozen audits that corroborate this train of events. I would 
agree this is a good chronology of the rather sad history of 
this situation.
    As far as the prospects for execution of the current plan 
are concerned, I would not be terribly surprised if it has to 
be recast one more time, because I don't think that we can be 
fully confident that we understand how many new investigations 
are going to be required until the system that Mr. Money 
referred to, the new system that is just being fielded now, is 
actually in place and starts generating experience data that we 
can all rely on.
    I think in another year or so we will be looking at the 
numbers again and perhaps--the plan does not necessarily have 
to be stretched out. It may be evident that we will achieve 
this steady-state sometime earlier, but my guess is that we 
will be seeing--we will not be seeing this steady-state for a 
few months after the end of the projected plan.
    Mr. Shays. I am going to recognize Mr. Clay, but I just 
want to--I am sorry, did you want to say something, Mr. 
Leonard?
    Mr. Leonard. Just 30 seconds or so, sir. I would like to 
elaborate on that and go back.
    The reason why this is referred to by the Comptroller as 
the Spend Plan is historically one of the reasons, and there 
are many reasons why we are in the situation, there was a 
longstanding disconnect between the workload for DSS and their 
budget. What this plan did last summer is, forced the 
components, especially the services, to identify what do you 
need for the next 2 years in all types of investigations, and 
pony up the dollars to pay for it. We at least got that 
connection between requirements and budget.
    And with respect to the ever-shifting numbers, we recognize 
until we get the real-time insight through the data base, this 
is a challenge. That is why we send monthly report cards to all 
of the services and all of agencies in terms of how they are 
executing in accordance with this plan, and why we hold 
quarterly reviews to review the progress, to access the 
accuracy of those numbers, and determine what additional 
modifications we need to make.
    If you recall, when I was here several months ago, sir, the 
one thing I did tell you, the only thing I can tell you with 
any degree of certainty, is that 2 years from now when 
hopefully we have successfully accomplished the plan--the only 
thing I could tell you was that it would not be in accordance 
with what we thought in the summer of 2000 because no plan is 
that prescient. The key is the continuous monthly monitoring, 
the quarterly reviews and the constant interaction with the 
customers.
    Mr. Shays. The challenge is that if you have a plan that is 
accurate, you can make logical decisions. If you came and said 
2 years ago we would be in this state, we probably would have 
appropriated more money, made different assignments. We 
probably would have said, this is too serious a thing to allow 
to come to this result.
    The bottom line is that the customer, the government, is 
not being well served yet by this process. They are not getting 
the clearances that they need.
    Mr. Leonard. You are absolutely correct, sir. That is the 
one thing that has been accomplished. The Department chose----
    Mr. Shays. What has been accomplished is that this is the 
last plan, and this plan will be a more accurate plan?
    Mr. Leonard. What has been accomplished is the funding.
    One of the things that came out of these Defense Management 
Council and Defense Resource Board reviews was the commitment 
to fund over the beginning 5-FYDP, the 5-year defense plan, an 
additional $318 million over 5 years to pay for the work that 
is required.
    In addition, when the determination was to go to OPM for 
additional work, there was likewise the commitment by the 
customers to pay for that additional work from OPM. So that has 
been one of the contributing factors, that total disconnect 
between requirements and budget. From that point of view, I 
believe that part has been addressed.
    Mr. Shays. I need to go to Mr. Clay. When I come back the 
second time, I am fascinated, Mr. Money, that you did not 
mention the internal report that you requested, Mission 
Degradation.
    Mr. Clay, you have as much time as you want.
    Mr. Clay. Thank you, Mr. Chairman.
    I would like to submit my opening statement for the record 
and get into the questioning of this panel.
    Mr. Shays. You have got it.
    Mr. Clay. Mr. Money, will you provide the committee with 
the list of contractors which you mentioned?
    Mr. Money. Certainly. I can generate it right now if you 
would like.
    Mr. Clay. Yes, that would be good. Thank you.
    Mr. Money. OK.
    Mr. Clay. Mr. Money or General Cunningham, does DSS now 
have its own computerized data base with a list of everyone who 
has a security clearance?
    General Cunningham. Yes, sir. In DSS we manage a data base 
for everybody that has a clearance.
    Mr. Clay. Do you know the date on which all clearances come 
due for reinvestigation?
    General Cunningham. Yes, sir. A day when reinvestigations 
come due can be discerned from the listing by name and Social 
Security number that is in the data base.
    Mr. Clay. So that pops up on the screen?
    General Cunningham. No, sir, it is not mechanized just to 
pop up. I think that the joint adjudication system that Mr. 
Money mentioned in his opening remarks is designed to do that.
    Perhaps Mr. Leonard would say more about that.
    Mr. Clay. Mr. Leonard.
    Mr. Leonard. Again, that is one of the many contributing 
factors that we have--that contributes to this issue. The 
current data base that we have only reflects individuals who 
have been investigated and adjudicated as being eligible for a 
security clearance.
    The problem is that people's assignments change. In the 
military, you routinely rotate every 2 to 3 years. You may no 
longer require that clearance. It is that sort of granularity 
that we don't have insight into that is tying a clearance 
requirement to a specific billet or a specific position.
    The new data base that Mr. Money referred to earlier that 
we intend to field within a year's time, at least initially 
will provide us that capability to assign clearance requirement 
to a specific billet; and of course that is the key, essential 
ingredient to be able to do real-time projections of 
requirements.
    Mr. Clay. What happens if there is a failure as to the 
resubmit or reinvestigations or clearances revoked or 
suspended?
    Mr. Leonard. That is the situation where there are the 
317,000 clearances that are out of scope, so to speak, the 
investigations that they are based upon exceeds the 5 or 10-
year standard.
    The September 2002 date that Mr. Money referred to, what 
that means is on September 30, 2002, for every clearance that 
is in existence in the Department of Defense, we will strictly 
enforce the national standard that either the clearance 
investigation must be current within the scope of the 5 or 10 
years or must be in process.
    GAO pointed out that because of the backlog, there was no 
consequence to the services to not putting in requests for 
periodic reinvestigations. There is now a consequence 
established. Everyone understands if you have a clearance and 
come September 30th if the investigation is not current or at 
the very least in process, you will be required to 
administratively terminate that clearance or downgrade it. If 
it is a top secret clearance, you could downgrade it to a 
secret clearance within the scope if that is all that is 
required.
    Mr. Clay. Mr. Lieberman, Mr. Money mentioned several 
problems with the Office of Personnel Management, which I was 
surprised to hear. For example, his first chart says OPM does 
not meet estimates and on the next chart on plan success 
factors, the direction of the arrow suggests OPM is losing 
ground.
    Is that your view of OPM's performance?
    Mr. Lieberman. Sir, I do not have any information on OPM's 
performance, so I would have to defer to Mr. Money or Mr. 
Leonard.
    Mr. Leonard. I can address that, sir. OPM's performance has 
been outstanding. They have--an earlier question from Mr. 
Kucinich in terms of how long it takes to do an investigation, 
they have established time lines, anywhere from 35 days for a 
background investigation all the way up to 180 days, depending 
upon what the requirements are. By and large, they are meeting 
those standards in every case.
    The reason why the arrow is pointing to the left is because 
in one particular category, the most complex cases, in the past 
several weeks and only in the past several weeks, their case 
completion times have gone up beyond the standard. However, the 
reason for that is because of the amount of work that we are 
giving out, we are, dependent upon what I call ``third-party 
providers of information.'' We have to do FBI checks, INS 
checks, State Department checks, what have you. Those are other 
activities that we are dependent upon. The more we push out, 
the more they have to respond to. That is the challenge we have 
today as a community. I have directed my people to get together 
on a community-wide effort. We need to collectively address 
this, because it is not an OPM problem, it is a community 
problem that impacts DSS and impacts every other agency that 
does background investigations. So it really is not an OPM 
problem.
    Mr. Money. By no means was I throwing any dispersions on 
OPM. The trend is, just as Leonard referred, starting to show 
some telltale signs there. The other problem is not an OPM 
problem; it is manifested in OPM, and that is the components 
are not sending as directed the required cases to OPM versus to 
DSS.
    What our chart here tries to show you, the plan was to have 
roughly 1,500 a day going to DSS; and there is about 1,900, 
almost 2,000 a day going to DSS. The plan was 1,300 and 
something, 1,400 going to OPM; and it is about 1,000. So that 
is the imbalance that I was referring to. That is not an OPM 
problem; it is the feeders up here getting it to the right 
spot.
    Mr. Clay. Of you getting the correct information to the 
different agencies.
    Mr. Money. Yes, sir.
    Mr. Lieberman. Could I make a comment on that, sir? Despite 
the fact that OPM's times are a little bit greater than what we 
would like, they are still very good; and the bottom line is 
there is still unused capacity at OPM on the one hand, whereas 
on the other hand, DSS is overwhelmed. So I think it only makes 
sense to shift some of that work load sideways.
    Mr. Clay. What does that do for the target date of 
September 2002? Do you think we can meet that date?
    Mr. Leonard. That--I am bound and determined, sir, not to 
give up on the--oh, I am sorry. I apologize.
    Mr. Lieberman. Well, I think unless we do take some 
additional actions, the date is not achievable; but I think we 
understand what those actions have to be, and I think what 
Secretary Money and Mr. Leonard are telling you is that they 
are willing to try some new things and to correct some of the 
things that we see need adjustment right now.
    We are only 4 months into this 24-month plan, so it is not 
surprising that it needs some tweaking at this point. But I 
still think there are--it is going to be a risky proposition, 
and I am not sure whether it makes a big difference a few 
months one way or the other.
    As Mr. Money says, if we get caught too much in the numbers 
game here, that might be a mistake; and whatever we do, we 
definitely do not want to put so much pressure on the 
investigative agencies to hurry up that they do sloppy work.
    Mr. Clay. Mr. Money, will this take additional money?
    Mr. Money. Let me answer that in a roundabout way. Let me 
just foot-stomp with what the IG just said. Quality is still 
the most important thing. But if I could just amplify on your 
question and also back to what the chairman asked earlier, you 
can see here that this has roughly 1.5 million cases over 2 
years. We are building, if you run the numbers down here, 2 
million cases over 2 years. So there is a built-in contingency 
plan, if you will, of handling more than what we anticipate in 
workload; we will have a capacity to handle. So that gives me 
more confidence. So we have a built-in contingency plan. It 
gives me more confidence of making that date.
    Do we need more money? We need this 300 and whatever over 
the FYDP to fund the DSS in this regard and the services need 
to fund OPM as a case system for them as well. That money is in 
the plan and so, in the POM, what we refer as the POM. As the 
President's budgets come forth, we need to make sure that is 
still in the President's budget every year.
    I anticipate as pressures build that 300 million is likely 
to be attacked and be drug off other places, so we will need to 
be very forthright on keeping in there; and we may need some 
help.
    Mr. Clay. Thank you very much.
    Thank you, Mr. Chairman, for your patience.
    Mr. Shays. Thank you. No patience required. Very 
interesting questions.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. Again, I 
want to thank the witnesses.
    General Cunningham, how many people might it take to work 
on any particular investigation? You know, we have an 
assumption like one person per case, but do you have sometimes 
2 people work on a case, 3 people, 10 people, 20 people? What 
do you do?
    Mr. Cunningham. It could be any of those, depending upon 
how many leads are developed in the case. Normally, with 
references in several physical locations, then you will have 
what we call leads, parts of the case that need to be done and 
distributed that way.
    Mr. Kucinich. Right. I was just interested in the context 
of a case that I learned about. There was an encounter between 
the defense security service and an MIT scientist by the name 
of Ted Postal, who was evaluating the NMD and other weapons; 
and as you know, he was evaluating claims made by the DOD about 
the development and testing of the NMD, and he wrote a letter 
to the White House about it, and the letter was in the New York 
Times. The letter went to the BMDO, and they believe that some 
of the information in the letter was classified and was 
mistakenly given to an individual, provided it to Dr. Postal 
without him being made aware that it was for distribution.
    My concern is that, you know, once the BMDO went to the 
DSS, since it has jurisdiction over the industrial security 
program, the program through which individuals such as Dr. 
Postal received these security clearances that are the subject 
of our hearing today, BMDO asked DSS to contact Dr. Postal to 
inform him of the classified nature of the information he 
utilized in the letter.
    Here is the question I asked about how many people you have 
on the case. You had agents drop by unannounced at MIT to talk 
to Dr. Postal; but it wasn't one agent, it wasn't two agents, 
it was three agents looking at a single case, just stopping by 
to see this person who had written a letter to the White House 
and then in the New York Times; and one of the agents, we had 
information brought to my attention, supposedly had some 
difference with Dr. Postal relating to a past evaluation.
    I just wonder if this particular case reflects a general 
approach that DSS uses. Was it given particular attention 
because this is somebody who was critical of the Department of 
Defense weapons testing? You know, is this normal practice? Do 
you send more or less agents, depending on the mission? Or, I 
guess, how many people from DSS does it take to screw in a 
light bulb?
    Mr. Cunningham. Yes, sir. The Postal case was very high 
visibility. It was not a security clearance investigation; it 
was to get information related to the case. The three people 
involved were industrial-security people. Because of the 
visibility of the case, the three people, a field office chief, 
a senior industrial security representative and the industrial 
security representative responsible for the facility that Dr. 
Postal was operating in, went to see the facility security 
officer to discuss the case.
    While they were there, the facility security officer said, 
let us go down and get you scheduled with Dr. Postal. The 
facility security officer took--as I understand this, the 
facility security officer took the three DSS personnel down to 
the admin person to schedule a meeting with Dr. Postal. When 
that happened, Dr. Postal came out of a meeting and he said, 
what do you want? And they said, well, we came here to schedule 
an appointment; and he said well, come on in, I will talk to 
you right now, and they entered a conference room and began a 
conversation that had not been scheduled; that those three 
people were going to work out the details with the facility 
security officer. That is my understanding.
    Mr. Kucinich. OK. I do not--I know we have a broader scope 
in this hearing, and so what I would like to do is just submit 
a list of questions.
    Mr. Cunningham. Yes, sir.
    Mr. Kucinich. So that we do not belabor the point. 
Obviously, what I am interested in is why--you know, I am just 
looking at one case here. Why would three agents be there? I 
have trouble understanding that when we are talking about a 
backlog, Mr. Chairman. You know, if you have a backlog--excuse 
me. If you have a backlog and if you have a number of people 
who are going out on what is a case, it seems to me that the 
assignment of personnel, that decisionmaking as to how many 
people go out on a case also relates to the production of a 
backlog, that is all.
    Mr. Cunningham. Yes, sir.
    Mr. Kucinich. I just wanted to share that thought with you.
    Mr. Cunningham. And I can understand fully how it might 
appear that way; but these people were not security clearance 
investigators, not related to the backlog.
    Mr. Kucinich. Do you have a backlog with the industrial-
strength investigators?
    Mr. Cunningham. No, sir.
    Mr. Kucinich. And is that pretty much a general operational 
mode that they have, going out in teams? They work together as 
a team?
    Mr. Cunningham. No, sir, it is not. This was an exceptional 
case.
    Mr. Kucinich. Mr. Money remembered--you know, he remembered 
me as the mayor of Cleveland. The reason why I asked that 
question, I used to get calls from constituents that say how 
come you need three or four guys to work on filling a chuck 
hole, and actually you could come up with a conceivable answer; 
but I was just wondering what your conceivable answer would be, 
and I appreciate your time.
    Mr. Shays. Would the gentleman yield?
    Mr. Kucinich. Of course.
    Mr. Shays. I wanted the public record to be accurate. Mr. 
Postal was accused of violating his clearance. Right? Is that 
the issue? So it is a little different.
    Mr. Money. Let me help here. Mr. Postal was being 
investigated----
    Mr. Shays. Dr. Postal?
    Mr. Money. Dr. Postal, for the possible release of 
classified information; and it has nothing to do with periodic 
reinvestigation. It was the possible use of classified 
information, and that is what--so that was a wholly different 
issue.
    Mr. Shays. But your office gets involved in that.
    Mr. Money. Yes, sir.
    Mr. Shays. So it is clearly an appropriate question to ask. 
I just wanted to clarify in my own mind that issue.
    Mr. Money. Yes, sir.
    Mr. Kucinich. Again, Mr. Chairman, I appreciate the chance 
to just bring that up in the context of these larger problems. 
From another point of view, I was just concerned, there was a 
letter to the White House, and then in the New York Times, and 
the next thing you know he gets a visit from DSS. But you 
pointed out it is a subgroup within DSS; is that right?
    Mr. Money. Yes, sir.
    Mr. Kucinich. But they are still under your command?
    Mr. Money. Yes, sir.
    Mr. Kucinich. Thank you. I will send you the questions.
    I just have a broader question before I conclude with my 
questioning. We saw in the Hanssen case questions raised about 
what can the American public expect with respect to national 
security if there is backlogs that do not permit people really 
to be--have their performance reviewed or their conduct on the 
job reviewed in a timely manner, and what are the implications 
of that.
    I guess there is--and I know this is very painful for you, 
I am sure, but understanding that you were reduced immediately 
by 40 percent in your budget and that you have had to play 
catch-up ever since, it just seems to me that there are serious 
questions about the quality of our national security. I mean, 
this committee exists, obviously, for the purpose of oversight 
on those matters; but notwithstanding the real efforts that are 
being made by all of you gentlemen who are sitting here--and we 
appreciate your service to our country--it seems to me that we 
have a system that is designed to fail, and evidence of that is 
that it has--it has continued to fail.
    I just wonder, frankly, Mr. Chairman, how we can assure the 
people of the United States of America of the security of the 
information which we need to protect our Nation if these 
backlogs make it impossible to successfully review the conduct 
of individuals such as Mr. Hanssen.
    Mr. Money. May I respond?
    Mr. Kucinich. Of course.
    Mr. Money. I do not want you--I agree with your premise, 
but the reinvestigation is not the only indicator if somebody 
is doing something illegal or espionage or whatever. So there 
are other indicators therein. It is every supervisor's 
responsibility throughout the government, and for that matter 
throughout industry, to be responsible for their people. In 
various cases, there are other indicators, not just a periodic 
reinvestigation. However, periodic reinvestigations need to be 
conducted on time and so forth, and that is the backlog.
    I might point out that when Executive Order 12968 was 
issued, that created an initial problem. There have been some 
other problems relative to the CCMS and so forth, so there is 
no doubt about that; but there is not just one single point 
failure here on reinvestigations pointing out espionage or 
whatever. There are other indicators. Frankly, Congressman, 
that is why I advocate wholeheartedly this aperiodic approach 
to checking out folks.
    Mr. Kucinich. Did you not say though, however, Mr. Money, 
if I heard you correctly, and if I did not, please correct me, 
that you cannot get to the aperiodic investigations until you 
get the backlog out? Did you say that?
    Mr. Money. Yes, sir, I did say that. That is the priority 
we have today. I will be honest with you, Congressman. The 
biggest--in my view, the most urgent thing we need to get to 
aperiodic is to have some privacy issues worked out with 
Congress so we can go in and aperiodically look at an 
individual.
    Mr. Kucinich. I understand that.
    Mr. Money. Let me give you an example. Every week I go buy 
gas, I use a credit card. Examining that credit history can be 
an ongoing thing. So if my account went up or down dramatically 
at any given time, that could be a red flag. We are not taking 
advantage of that information technology today that is readily 
available. The way it works today is they only look at me every 
5 years. That can be done a lot more frequently. That is the 
kind of thing that I would like to work toward.
    Mr. Kucinich. I understand that, and again, I respect that 
you are trying to do your job. You know, if we put that in the 
context of the Hanssen case, his credit history did not show 
any red flags, according to the information that has been 
offered publicly and in news periodicals such as Time Magazine; 
and there was, however, some contact that was made in 1985 that 
would have raised some questions, but did not, and so he was 
able to somehow escape scrutiny.
    I would expect that DSS is going to be working to try to 
get back to an aperiodic review, because if you do not do that, 
there are people who are in the system right now, we cannot be 
confident if there are any security challenges here.
    I think most of the people who work for the United States 
of America are very loyal, dedicated people; and I think the 
gentlemen who are up here are very dedicated to our country. We 
still have a system here that notwithstanding your efforts may 
not be successful because of the design of, and you know, back 
to Mr. Lieberman, because of the system design; and part of the 
system design is the resources needed in order to successfully 
complete these clearances on time.
    So I just--look, you know, we are not sitting here in 
judgment on any of you, because we understand how difficult 
your job is, but we--I am just concluding as the ranking member 
here that, gentlemen, there is a mess here; and I know that you 
are trying your best to clean it up, but you may--we may have 
to, Mr. Chairman, make some suggestions as to how the system 
might be reengineered to make it more efficient.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Thank you very much.
    Mr. Money, I am going to ask a few questions. I do not want 
long answers if that is possible, and then I want to talk about 
the internal report. I want to know, what is the total personal 
security investigation [PSI], and the periodic reinvestigation 
[PR], backlog as of today?
    Mr. Money. Roughly 434,000 at DSS.
    Mr. Shays. 430,000?
    Mr. Money. Put the chart back up. Yes, sir, 434,000.
    Mr. Shays. OK. And PR?
    Mr. Money. That is included. PR yet to be submitted?
    Mr. Shays. Yes.
    Mr. Money. 317,000. That is that number.
    Mr. Shays. That is yet to be submitted.
    Mr. Money. Yes, sir.
    Mr. Shays. OK. When will the total backlog be in DSS?
    Mr. Money. I did not hear the question.
    Mr. Shays. When will the total backlog all be within DSS?
    Mr. Money. Never, in the context that there is always--if 
you refer to the backlog of the 317 and the 468, 436, 434, is 
that the backlog you are referring to, how long will that be in 
DSS?
    Mr. Shays. I want to know when it gets transferred over.
    Mr. Money. There are 2,500 cases a day are coming out of 
DSS going into the adjudication process.
    Mr. Shays. That is not what I am asking. I am asking--Mr. 
Cunningham, do you want to respond? I think----
    Mr. Cunningham. Sir, my understanding of your question is, 
when will that that is not in DSS arrive in DSS?
    Mr. Shays. Yes. I did not say it as well as you did. What 
is the answer to that?
    Mr. Cunningham. I do not know the answer to that.
    Mr. Money. This is, again, based on where the complements 
and services will submit them. That should be driven by the 
date of which a reinvestigation should occur.
    Mr. Leonard. But again, if I could add what the bottom line 
is, the bottom line is that if, come September 30, 2002, of 
that 317,000, if there is any more that are out there that have 
not been submitted to DSS, the services have already been told 
2 years in advance, you will have to either administratively 
terminate that clearance or downgrade it as appropriate. So 
that is the standard that was established last summer. It is 
still the standard. It is still what the services are working 
toward and what they have funded their requirements to.
    Mr. Shays. I am going to really point out an ignorance 
here, but--and I am somewhat reluctant because it must really 
be a big ignorance. Terminating their clearance is their fault 
or your fault?
    Mr. Leonard. The--part of the--as I mentioned before, part 
of the many, many reasons why we are in this situation is the 
disconnect, the historical disconnect between DSS's workload 
and the budget they were given every year. As a matter of fact, 
there was no connection. There was no controls over the work 
that came in and what have you.
    Mr. Shays. But give me an answer to my question. I 
understand that.
    Mr. Leonard. OK. So the challenge then to the service is 
that all you have to do is sit somebody down and have them fill 
out the form and make sure there is money to pay for that 
investigation.
    Mr. Shays. It is their job to have the money to pay for the 
investigation?
    Mr. Leonard. It is their job to have the money to pay for 
the investigation, it is their job to sit the person down to 
fill out the form, and it is their job to send it in.
    Mr. Shays. But I made the assumption that they are not 
being brought over to you because you did not have the 
capability to handle it, and the problem is, they do not have 
the money appropriated to give it to you. Is that correct?
    Mr. Leonard. Right. And now we gave them a schedule in 
which to move that work over, and they have established a 
funding line to fund that work to move over. So that is why the 
standard is not to have the investigation--I agree, if the 
standard was the investigation has to be completed, that is not 
the service's responsibility. They have no control over it. But 
they do have control over having the person fill out the form, 
send it in, and they do have control over paying for it.
    Mr. Shays. Mr. Lieberman, do you want to jump in here?
    Mr. Lieberman. Well, I think----
    Mr. Shays. Or would you jump in? Thank you.
    Mr. Lieberman. Certainly. This data has been moved twice, 
that I am aware of, and what it means is, there was--some of 
these requests will not be made until late in fiscal year 2002, 
and nobody can be sure exactly how many. I guess what the 
investigative community really fears is that late in 2002 when 
they think the goal line is in sight, there will be a massive 
influx of new requests, exceeding any estimate.
    Mr. Shays. New requests by whom?
    Mr. Lieberman. By the hundreds of different offices that 
make the actual clearance requests.
    Mr. Shays. OK. Which they have to fund?
    Mr. Lieberman. Yes. There are a lot of--there is such 
intense competition for funds within the Department of Defense 
right now that there is a budget problem and people are tending 
to put off anything that can be put off. So one of the down 
sides of giving them until September 2002 to make all of these 
clearance requests is that from a budgetary standpoint there is 
always a tendency to say, well, I do not really have to do this 
with my 2001 money, which is very scarce; so I will put it off 
until 2002, and then maybe I will be in better shape funding-
wise then.
    Mr. Shays. I feel like I am in an Alan Greenspan hearing 
where people are talking in tongues and I have to figure out 
what they are saying. I almost feel like what you are telling 
me is that DSS is having to take the hit for other decisions 
made in other units of DOD.
    Mr. Lieberman. Yes.
    Mr. Shays. And that in a way, we may be having the wrong 
people come before us. Stop nodding your head, Mr. Money.
    Mr. Lieberman. You could indeed have a very large cast of 
characters sitting here because essentially every organization 
within the Department of Defense, every military department 
within the defense agency has a piece of the action here. They 
are the ones on the front end who decide what clearances are 
necessary and when they are going to send requests in to DSS.
    Mr. Shays. I see.
    Mr. Lieberman. And they control the paperwork, which is now 
electronic.
    Mr. Shays. Right.
    Mr. Lieberman. But they are supposed to make sure that is 
done right so the investigators have the right information to 
launch the case with, and they have to come up with the money 
to pay DSS up front for each one of these requests.
    Mr. Shays. I hear what you are saying, but I would like Mr. 
Money not to have to--I feel like I am in a game where I am 
having to try to figure this out.
    Why would your testimony not start out--and if it did, 
excuse me, but why would it not start out by saying, you know, 
we are in a gosh darn mess, and this is the problem, and the 
branches have not been setting aside enough money, and this is 
the result; and we should be getting these over sooner, and we 
should be hiring more contractors and whatever to do these 
investigations. I mean, I feel like--I was thinking that you do 
not have the capability to manage, and maybe it is a 
combination of that, manage this process.
    Mr. Money. Can I help here, I hope?
    Mr. Shays. Sure.
    Mr. Money. If you look at this box here, this is nothing to 
do with DSS, this is the requirement coming in to DSS.
    Mr. Shays. Well, it has everything to do with DSS. It is 
what you have not accomplished. What do you mean it has nothing 
to do with DSS?
    Mr. Money. Well, it is how many recruits do they recruit in 
the Army, Navy, Air Force as part of that, do their jobs 
require.
    Mr. Shays. That is the inflow of your business?
    Mr. Money. Yes, sir.
    Mr. Shays. And those are your customers.
    Mr. Money. Yes. In the outcome down here, DSS does the 
investigations; DSS is often accused of not issuing a 
clearance. The clearances come through the adjudication 
process. So what Bob Lieberman said and what you are getting at 
is this is bigger than DSS, the services and agencies that 
require clearances and so forth.
    What I was responding to in the budget sense was what is in 
this box, not what is up here in the Army, Navy, Air Force and 
the various agencies.
    Mr. Shays. It sounds to me like--in one way, it sounds to 
me like in one way you are not disappointed, because you are 
not sure you can handle it even if they gave you the money.
    Mr. Money. No, sir. I do not mean to imply that. I believe 
we can handle all of this and, in fact, have 500,000 numbers 
reserve over 2 years based upon what we have in place in DSS 
and what we will get in place in OPM.
    Mr. Shays. OK.
    Mr. Money. Now, admittedly, the 317,000 is believed to be 
phased based on the dates of reinvestigations, not one lump sum 
coming in on September 20th, so that there is the assumption of 
that.
    Mr. Shays. We are going to just nail this down a little bit 
better so I understand it. My staff does, but I better 
understand it better.
    All I am trying to say to you is that I--one thing I cannot 
stand--I mean, I can have people come to me and say, we are 
doing our best and sometimes they have not done what they 
should and we do not hit them on it and we just know the next 
time they are going to do their best to get it done. If we have 
not provided you the resources, it is crazy for us to condemn 
you for not doing your job if we have not done ours; but if we 
are not told up front and direct, and without having to peel 
away the skin where the problems lie, then I lose my patience a 
little bit.
    I mean it by this way: being a good soldier, I do not like 
the concept of being a good soldier when it comes to a hearing. 
If you are taking a hit for someone else, I do not want you to 
do it, because then I do not know where the problem is. I just 
like blunt talk, and then we solve the problem. I will get to 
that a little bit, what I mean by that in a second.
    I am curious to know, the 45 percent in your workload 
transferred to OPM, does that not give you a tremendous ability 
to accomplish more? I mean, what has been the impact? We took 
45 percent. Admittedly they were not your biggest cases. Right? 
These were your easier cases, General Cunningham?
    Mr. Money. No, sir, there are no easier cases when they 
start it out. It is during the investigation.
    Mr. Shays. Well, let me clarify. If you have confidential, 
secret, and top secret, you have different levels of 
investigation.
    Mr. Money. There is more investigation that takes place, 
yes, sir.
    Mr. Shays. There is some pro forma. I mean, when my 
daughter worked in an Embassy, she had one level of clearance. 
I am sure it did not take too long to check her out, at least I 
hope not. So there are degrees. I am going to have both of you 
comment. General Cunningham.
    Mr. Cunningham. Sir, if I may comment on the requirements 
part.
    Mr. Shays. Let me just explain, General Cunningham has 
gotten away, I think, more than you have, because he has had 
two chances to come before me, so no offense to you, so he gets 
it sooner.
    Mr. Cunningham. Yes, sir. And when we were here before, we 
talked about the requirements and our working with the military 
departments who are drivers in this, and trying to get them to 
put the requirements for security clearances, to develop them 
from their plans, programs and budgeting in the planning, 
programming and budgeting system, which is the administration 
by which they develop their budgets.
    What we would seek from the military departments is that 
they treat security clearances just as they treat requirements 
for certain types of training, certain types of equipment 
provision, etc. If that were in place across the future years' 
defense plan, each year we could all know in the department how 
much was going to be required; and the resourcing from that 
programmatic detail could all be put in place, whether it be in 
DSS or in the adjudication activities or elsewhere.
    Furthermore, the military departments could take a look at 
those numbers and say, do we really want to have that many 
clearances? Is that the right thing to do?
    So I think the military departments are looking at that 
right now.
    If I may just go on for a minute longer.
    Mr. Shays. Sure.
    Mr. Cunningham. When we think about the industrial 
security, industrial security is by and large the 
responsibility of the Defense Security Service to work with the 
defense industries or those who need to have access.
    Mr. Shays. You do these clearances?
    Mr. Cunningham. Yes, sir. Yes, sir. But what we are doing 
now, and we are working in team with industry to understand 
what their projections are over a future year's defense plan 
timeframe, and then we are trying to gear ourselves to 
understand what is going to be needed every year in industry 
and also to have a central requirements office to interface 
between us and industry on these requirements, and also their 
priorities as they come along.
    Mr. Shays. What I am trying to ultimately understand as 
well is, though, we have a backlog, and in a perfect world we 
follow the backlog, we anticipate a relatively constant flow of 
customers in and adjudication in. Is that right, Mr. Money?
    Mr. Money. Yes.
    Mr. Shays. OK. And we are trying to get to that point, and 
we have two ways to do it--I mean many ways, but one would be 
to just spend a plethora of money, hire outside contractors, 
because I make the assumption outside contractors are 
convenient in some cases where you do not want to send people 
in certain areas or where you have this backlog that ultimately 
disappears, so why hire a lot of employees when later on there 
will not be that workload. So I see the outside contractors as 
a big help in getting to the backlog. Let me just make that 
point.
    But in my mind, I would think we would want the branches 
pushing this through as quickly as possible, because that 
represents a backlog within their departments. We would want to 
know what that total universe of backlog was, and we would want 
to get it right out of the system as quickly as possible, and 
then we would be current, we would be providing--and we would 
want to reevaluate who should have access. And you are being 
asked to do frivolous background checks for people who--when I 
read the number of people who have top secret clearance and 
secret clearance, it is pretty significant.
    So that is kind of where I am thinking, and I am seeing a 
lot of nodding of heads, but I do not know what that means.
    Mr. Money. You are absolutely right. In fact, that is what 
this plan tries to demonstrate.
    Let me point out one thing. The number of outside 
contractors that are available is very limited. The limiting 
factor here is the number of investigators, so let us not open 
the flood gate and put a badge on somebody. They have to have 
some training and so forth. OPM uses the same investigators as 
some of these outside contractors are using, so there is a 
limited set out there. What we try to do in this overall plan 
with getting to September 2002 is to optimize the best we could 
with what we have.
    Mr. Shays. Let me ask you this: At what point will the 
entire backlog have disappeared?
    Mr. Money. There will never be an entire backlog 
disappearing. The plan gets----
    Mr. Shays. I do not understand that because----
    Mr. Money. Well, let me help you. There will always be 
somebody coming in, new recruits, somebody with a 5-year 
update. So those will all be coming in.
    Mr. Shays. I do not consider those as backlog. Those would 
be current. Backlog to me is where you are not keeping current. 
Maybe somebody needs to define what current is.
    Mr. Money. Yes, sir. With your definition of backlog, we 
will be current then in September 2002.
    Mr. Shays. Am I using a bad definition, Mr. Lieberman?
    Mr. Leonard. Well, let me give you what----
    Mr. Shays. I want to use the terms you use.
    Mr. Leonard. Right. Let me just make perfectly clear what 
our definition of current is, because it can be confusing. The 
definition we are using is that to be current, if you have a 
security clearance, you have to have an investigation that is 
within the scope of either 5 or 10 years, or at least be in 
process for a clearance; and as long as you meet that standard, 
the continuation of your clearance is in accordance with the 
national standard.
    Mr. Shays. How long does the process take? I mean, I guess 
what I--I just think that you have new people coming in, you 
have reviews, 5, 10 years, they automatically come in the 
system, they come in and when should they be out? If Mr. 
Lieberman has been in and he needs to be reviewed, how long 
should it take that to happen?
    Mr. Money. The plan, sir, the plan is after September 2002 
there will be 150,000 in work, the average duration at that 
point will be 60 working days.
    Mr. Shays. That is your goal, for both new and reviews?
    Mr. Money. Yes. The 150,000 will be all----
    Mr. Shays. It is constantly in review and you will have the 
personnel that you will constantly be able to take and handle 
150,000.
    Mr. Money. For 60 days, yes, sir.
    Mr. Leonard. Just let me clarify--add to what Mr. Money is 
saying.
    Mr. Shays. Then, Mr. Lieberman, I am going to ask you to 
jump. But go ahead, Mr. Leonard.
    Mr. Leonard. What we want to eventually be able to 
establish within DOD is a process similar to what OPM currently 
has, and that is with a vast array of options for the customer 
ranging from very quick investigations, 30 days, all the way up 
possibly to 180 days. You say under what circumstances is 180 
days enough? Well, if somebody is going to a school for 6 
months and does not need that clearance until they come out of 
school, then 180 days is just-in-time investigative work.
    So our goal is to eventually be able to perform much the 
same way OPM does today. We will not be in that position on 
September 30, 2002 to be able to meet the same standards that 
OPM does. That is the goal we are striving for. What we will be 
able to do on September 30th is at the very least be able to 
ensure that everyone within the Department of Defense who has a 
clearance either has a current investigation or is in process 
for one.
    Mr. Shays. OK. Let me just ask you to comment, Mr. 
Lieberman, and then I want to talk about the book.
    Mr. Lieberman. Well, it is an ambitious plan. To meet that 
State, to get to that point, we are going to have to have much 
better information tools in place than we have now. Everything 
is going to have to go right in terms of fielding new systems; 
and I know, Mr. Chairman, I have been over here on numerous 
subjects before you before, and the common theme running 
through all of them is that we have bad information systems and 
need something better; and historically, the track record for 
systems coming in on time, on schedule and actually being fully 
functional is not particularly good.
    So there is risk there. If the new systems come in on 
schedule and are fully operational, we do not have anything 
that remotely looks like the CCMS fiasco, then we will have a 
fighting chance to get from here to there.
    The other thing is enough people, will there never be 
enough investigators whether they are in OPM or DSS or anyplace 
else to handle whatever the workload turns out to be.
    Mr. Leonard. If I could just give a blunt point to your 
earlier point, you referenced 45 percent of the work going to 
OPM to take the off-load. That was the original plan; and quite 
frankly, for the first quarter we failed to satisfy that. And 
what the consequence is----
    Mr. Shays. And what did you fail doing?
    Mr. Leonard. DSS for the first quarter of this plan 
received more work than they were intended to and OPM received 
less work than they were intended to. So the services and the 
defense agencies did not meet the target submissions that were 
established for them.
    When I mention that we send monthly report cards to the 
services and do a quarterly get-together with them, those are 
the very issues that we work with them on.
    Now, when I met with the services just several weeks ago on 
this issue, they said, well, you have to understand, you know, 
a lot of this is cyclical, a lot of this deals with recruits, 
we bring recruits in mostly in the summertime. My response to 
that is answers which have the connotation of ``it will all get 
better next quarter'' are unacceptable, because we are almost 
two quarters into an 8-quarter plan. We are running out of 
quarters. So that is why we are making the determination that 
irrespective of what we are told will happen this summer, we 
will be sending more work to OPM immediately because there is 
an untapped capacity there; and it is hurting General 
Cunningham and his folks because they are getting more work 
than they were intended to, and that sets him back on all his 
measures.
    Mr. Shays. Well, there are different points where you could 
have a log jam; you could have a log jam at the end with the 
adjudicator just not simply passing on the information.
    Just before I go into a line of questions about the 
internal report, if General Cunningham, all of a sudden all of 
the branches, all of the different units, everybody just 
flushed everything right down to you, you could not handle it. 
Correct?
    Mr. Cunningham. That is correct, sir.
    Mr. Shays. So you have this kind of yes and no kind of 
position. You want them to come in, but you do not want too 
many to come in.
    Mr. Cunningham. Yes, sir. That was the thrust of what I was 
explaining earlier. It is my view--and I know that Mr. 
Leonard's staff is doing research on this as well--but it is my 
view that if the military departments do not include security 
clearances in their programming process the same way they do 
everything else, we are doomed to constantly re-creating 
backlogs.
    Mr. Shays. Say that one more time.
    Mr. Cunningham. If the military departments do not include 
security clearances in their programming process as they do 
everything else----
    Mr. Shays. Programming process, define that for me.
    Mr. Cunningham. Planning, programming, and budgeting 
system.
    Mr. Shays. In other words, they have to make sure they have 
planned for it, they have budgeted for it----
    Mr. Cunningham. Yes, sir. And it all comes from the four-
structure plan and everything derives in programmatic detail.
    Mr. Shays. We are going to line them all up in a long row, 
we are going to have tables going way over there, and we are 
going to have them all come in. I am serious. We are going to 
have them all come in and respond; and you guys, I am going to 
allow you to sit right up here and you can face them, and we 
are going to have an interesting dialog. Maybe it will be a 
closed hearing, but we are going to do it. We are going to do 
that if we have to. But I am not sure--now let me just get to 
this internal----
    Mr. Money. If I could, sir, today the POM, the planning is 
in place for all of that to happen. The discipline is, as each 
year goes along, that money needs to stay for processing 
clearances, not to go fund something else.
    Mr. Shays. Yes, and your job will be, Mr. Money--let me 
just say this very bluntly. As soon as you hear that is not 
happening, you are to contact our office, and we will have a 
hearing within a week to find out why there is not that money; 
and we would work with the appropriators to let them know, this 
is a disaster, this just continuing to happen. But if you kind 
of suck it up and you are a good soldier and a loyal servant, 
then you are loyal to the wrong thing.
    Mr. Money. Yes, sir.
    Mr. Shays. I got to get this joke out of my system and then 
I will never use it again, because it illustrates my feeling. A 
guy just gets married and he gets his bride on the carriage and 
they go riding off in a buggy with a horse, and the horse trips 
and the wife says, that is once. And he looks at her, and then, 
I changed it a bit, didn't I? And then it happens again: the 
horse trips again and she turns to her husband and says, that 
is twice. And then the third time the horse trips, she says, 
that is three times, and she grabs the gun out of her husband's 
holster, gets off the carriage and shoots the horse in the 
head, and her husband screams, what did you do that for, 
hysterically, and she looks at him and says, that is once.
    Now, the challenge is that we have two already, and I would 
like to strike fear into somebody, because I just feel like Mr. 
Lieberman is right. He is basically saying you cannot do it.
    In this regard, let me talk about the mission degradation 
which was a report that you asked to be done. I am going to 
just read one or two parts to this. It says: ``the content of 
this report clearly mandates--'' This is the subject, a draft 
report on status and possible options regarding the conduct of 
DOD personnel security investigations at PSI, and it is dated 
February 8.
    ``The content of this report clearly mandates that bold 
action--'' underlined bold action ``--is needed to address 
current PSI case backlogs. The purpose of this draft report is 
fourfold: to serve as a frame of reference for surfacing 
various options and reactions to organizations both within and 
outside of the DOD department; B, to be used to further 
redefine the specific breadth of the situation with those who 
are performing PSI work for DOD; C, to serve as a think piece 
for the 22nd of February 01 meeting with DOD senior executives 
who will be reviewing the progress on balancing PSI funding and 
workload issues; and D, to present options which DOD uniformly 
supports as candidates for consideration by the agency.''
    Then further down in this OPM letter by Richard Williams: 
``The current inventory of PSI indicates is being worked under 
the normal budget process. It should be noted to the 
warfighter, moving these cases through adjudication and final 
decision will be another challenge! Completed investigations 
are only part of the issue. What basically affects readiness is 
when did the case go in, how long is it in the process, and 
when did it come back to the command or defense contractor? It 
is hoped that utilization of some of the options have been 
accepted uniformly by the interagencies can favorably impact 
the situation.''
    Then on 15 of appendix 2 it says: ``Case completion times 
for DSS have risen to an average of 441 days for top secret 
initials and PRs, and an average of 239 days for secret 
initials and PRs. Moreover, 194,000 of the pending 450,000 
investigations which have been submitted to DSS have not been 
opened.''
    I mean, this is just--Mr. Lieberman is right, and there 
will be a third trip of this horse, and someone is going to get 
shot.
    Mr. Money. OK. Thank you. That report, in fact, I 
commissioned.
    Mr. Shays. Right.
    Mr. Money. Unfortunately, it was not reviewed; and it is 
not entirely accurate. You will see it has ``draft'' on it and 
so forth, so it was a failing within my office of not having 
that vetted and made more accurate. But nevertheless----
    Mr. Shays. No, no, no, I think it is healthy.
    Mr. Money. That is what I am going to say, nevertheless, 
let us talk about all of that.
    Mr. Shays. No, no, not nevertheless, it is healthy.
    Mr. Money. OK. It would be more healthy if I had it as an 
accurate document to start with.
    Mr. Shays. But it would be more helpful if we have not gone 
through two times where we have had to change numbers.
    Mr. Money. I am trying to respond to that.
    Mr. Shays. I understand.
    Mr. Money. That document was a request that I made on what 
is happening with the top secret or the SBI-type clearances and 
as you quoted. Overall, this is the report card coming out of 
the first quarter, so I want to put this in the perspective of 
what I do----
    Mr. Shays. See if you can move your mic down a little bit. 
Maybe your blowing on it----
    Mr. Money. I will back off. Can you hear me OK?
    Mr. Shays. Yes.
    Mr. Money. I am going to answer your question. That report 
is specific on top secret SBIs relative to DSS, and what it 
says it is DOD----
    Mr. Shays. You can talk a little louder. No, no, leave the 
mic there, just talk a little louder.
    Mr. Money. That report is accurate on what it refers to for 
DSS, but what it is representative of of all of DOD, that is a 
misrepresentation because it is omitting what OPM has done; and 
if you will combine the two, you will actually see a 10 percent 
drop in the period for SCI tickets.
    So here is the total report, if you will, not that report, 
the total first quarter of the plan. It says, the component 
submitting PR investigation and backlog--it is yellow--and we 
have already talked about that today. Periodic investigations 
are coming in, and they are not going into the right spots and 
so forth.
    CCMS, which is the heart of all of this, is getting more 
stable and better; but it needs a prioritization application 
program added to it so we can prioritize things, and that is 
what that report pointed out. That internal report pointed out 
that we do not have a prioritization within DSS, which is being 
fixed and will be in place here in April.
    The investigative processes, we have talked enough about. 
There are not enough investigators and so forth; but the vector 
on that is at least moving in the right direction, as are the 
first three.
    OPM not meeting----
    Mr. Shays. But not according to the internal report.
    Mr. Money. Sir, the internal report is only a part of this. 
This is the whole program here. The internal report is only 
talking about SBI. This is the entire program here. The top 
secret clearances, if you will.
    Often, the reason that is going the other way is what we 
are talking about, they are starting to see some investigations 
slow-downs as their internal work under work-in-progress is 
increasing, but that is manageable. Adjudications are, in fact, 
keeping pace. We do have a couple of services, more or less 
the----
    Mr. Shays. How long does adjudication take?
    Mr. Money. Help.
    Mr. Leonard. In some cases, for some of the services, two 
of the services in particular, if it is a clean case, they can 
do it in roughly, if I am recalling my times correctly, about 
10 to 11 days. Obviously, if due process has to be provided, 
that is more time consuming.
    Mr. Shays. Ten days fits into your overall schedule of 60 
days? In other words, of the 60 days, 10 days----
    Mr. Leonard. No, those times are investigative times. So 
these times--this is what Mr. Lieberman was referring to, from 
a customer's perspective, from the time that request leaves me 
and goes wherever and gets to the investigator and then goes to 
the adjudicator and then back to the customer, there is a lot 
of people who have a piece of that puzzle and a lot of it does 
not pertain to General Cunningham and his organization.
    Mr. Shays. Well, that is what I care about. I care about 
the customer request to the customer getting it back.
    Mr. Leonard. Right.
    Mr. Shays. How many days is that?
    Mr. Money. I am told it could be as many as 100 days if 
there is a lot of issues with that case. Ten days probably if 
it is a clearance case. So again, that is very----
    Mr. Leonard. But in terms of----
    Mr. Shays. Let me ask you, who has the overall command of 
that? You are saying you had a piece? I thought you had a whole 
and he had a piece.
    Mr. Money. No, sir, the adjudications go back to the 
defense and the services agencies.
    Mr. Shays. Is there one person----
    Mr. Money. Secretary of Defense is the one person.
    Mr. Shays. No, that is not good. There is no one person 
that is following this and is taking charge?
    Mr. Leonard. From a policy perspective, that is my 
organization, sir. We exercise the policy and oversight over 
the entire process; and believe it or not, this may sound very 
basic, but one of the things we did last summer for the first 
time--and it is very basic and it should have been done long 
before--we required all of the components to appoint an 
assistant secretary level, a single person, who would be 
accountable for the execution of this plan from that 
component's perspective. So now, at the very least also, we 
have a go-to person that we can go to. They may not have it 
all, but they are the focal point, if you will.
    Mr. Shays. You have people that give it to you and then get 
it back, that one person?
    Mr. Leonard. That one person will be only at the assistant 
secretary level for the services or a deputy director level for 
an agency. So the actual requests come from thousands of people 
at every camp post and station and ship at sea worldwide. Those 
are where the requests come from.
    Mr. Money. From a policy standpoint, then that is us. But 
from a discussion standpoint, there is no single point until 
you get to the Secretary of Defense. The Army will adjudicate 
theirs, the Navy theirs, the Air Force theirs, the defense 
agencies, and the only place where that all comes from an 
operational standpoint to one person is the SECDEF.
    Mr. Shays. Mr. Lieberman, I am looking at you for your body 
language here. Help me out. Have you done a report that looks 
at it from the total picture, or have you just primarily 
focused from their side? In other words----
    Mr. Lieberman. We have looked a lot at the adjudication 
phase and the investigative phase. We have not done a whole lot 
of work on the front end in determining----
    Mr. Shays. In determining what has not been given?
    Mr. Lieberman. Right, right. So I think between us and GAO 
and the department's internal reviews over the years, the whole 
spectrum has been covered by somebody; but it is a very 
difficult thing to pull together. You squeeze the pipe at one 
place, and you create a bulge someplace else. So there does 
need to be for sure a comprehensive womb-to-tomb approach here. 
It is a tough thing to pull off because so many different 
organizations own different pieces of the pipeline.
    Mr. Shays. But your customer, I would think, would want--I 
mean, I know when we wanted our staff cleared so I could go 
into a meeting and have a staff person--I am assuming you all 
do those clearances--and in those cases because we work on a 2-
year cycle, I am making an assumption we somehow--you have a 
process where we jump ahead, and you have that for others as 
well. But as a customer, we have to want it bad; and I mean, I 
would think that your customers would be driving this more than 
they seem to be. I would think they would not want any in 
their--if I knew, for instance, my office had requests not yet 
transmitted to your office, I would be a pretty unhappy camper.
    Mr. Lieberman. Could I speak to that? I do run an 
organization of 1,200 people; so I am a customer, and yes, 
managers get very frustrated. When DOD did a survey of customer 
satisfaction of defense agency performance, the last time, DSS 
got the absolute lowest score of any defense agency in the 
whole department. Only like 14 percent of the customers said 
they were happy. Most of the others were up in the 80 and 90's.
    Mr. Shays. And in some cases, that is not fair to them.
    Mr. Lieberman. Exactly. Exactly. People really do not 
understand where the delay is. Part of that is because we have 
never had in the Department of Defense good information 
processes in place so that you could easily find out whatever 
happened to the request I sent in. And that has been a very 
basic thing that the department has been working on over the 
last couple of years. But for a smaller component like ours, we 
know exactly--well, we drive General Cunningham's people nuts 
all the time.
    Mr. Shays. The bottom line is, you have review over them, 
they are going to want to perform a little better for you, and 
you are probably going to be able to put yourself ahead of the 
line.
    Mr. Lieberman. Well, I have an aggressive security manager; 
and I encourage him to be aggressive, and the squeaky wheel 
gets the grease, yes.
    Mr. Shays. Could Cunningham say that you sat on some of 
your requests, or are your requests out pretty quick?
    Mr. Lieberman. We are caught up.
    Mr. Shays. In other words, you do not have any sitting 
around, lying around. I cannot imagine why any would. Except 
you have to provide the money for it.
    Mr. Lieberman. Yes. But these are not expensive on an 
individual basis. I mean, we are only talking a couple of 
thousand dollars here. The budget question only becomes serious 
when you are talking about some giant component like the Army, 
which needs to process many, many tens of thousands of 
clearances as opposed to the few hundred that I have to deal 
with.
    Mr. Shays. It is coming back to me, Mr. Cunningham. I 
remember in some of our other hearings we were talking about 
people who had been assigned a responsibility who were waiting 
6 to 9 months to a year and not able to do their job. So not 
only are we not providing good security for the people who are 
already in there and we want them to be reviewed for national 
security purposes; we have people simply who are hired, paid, 
and not able to perform. So this is--I just want to make sure, 
do you agree with this analysis that was being put forward? I 
frankly did not understand it, but that is not----
    Mr. Lieberman. You are referring to the bar chart?
    Mr. Shays. Yes.
    Mr. Lieberman. Could we put it back up?
    Mr. Shays. Red, yellow, and green are colors I am used to; 
but they were not defined for me to start with. I have a 
feeling red is not good.
    Mr. Lieberman. Green is good.
    Mr. Shays. Green is good.
    Mr. Lieberman. I think the Air Force invented this process 
a long time ago. But I think this is a very accurate portrayal 
of where the process stands in each of the categories that are 
listed. But I would have two comments on the chart. First of 
all, this process is sick as long as everything is not green, 
and we all need to understand that; and that is exactly what 
this chart says. They have one red element which is an absolute 
show-stopper, and even though the arrows--most of the arrows 
are moving to the right, which is the right direction, the 
question is, how fast can we get from red to green?
    Mr. Shays. And what you are saying is if you were doing 
this based on weight, some of these bars would be really thin 
and the investigative process one would be a broad band. In 
other words, because that is a much more significant part of 
this piece?
    Mr. Lieberman. Well, they are all significant pieces; but I 
think all cylinders in this particular engine have to be 
firing. Any one of them is a show-stopper.
    Mr. Shays. If any of the adjudication--if any one of those 
was not working, you have got a problem.
    Mr. Lieberman. We would never get to the successful end of 
the plan.
    The one thing that I would add to that chart, going back to 
General Cunningham's point, there is really no line in there 
about the planning process and the budgeting process, the 
resourcing process that needs to be in place to get us from 
here to there on this particular problem. But I think the 
arrows moving to the left are not--are cause for concern. 
Anything moving to the left is cause for concern. Anything that 
has not moved from red to green is cause for concern.
    Mr. Shays. I am confessing that I was in a hearing 
yesterday that was so long and distasteful, and this is so much 
more fun, but we are going to conclude in a few minutes.
    Mr. Money. I am glad you are having fun.
    Mr. Shays. Compared to yesterday.
    Mr. Money. Everything is relative, I appreciate that.
    Probably the security clearances are the most pervasive 
thing across the entire Department. It is not unusual that 
there is only one person in charge.
    This plan is in fact predicated that the budgets are in 
place and held there, so we can certainly add another metric; 
but I will be honest with you, Congressman, Mr. Chairman, it is 
very difficult to have clarity on that part of a budget in 
another service or in a Defense agency. That thing can be 
buried under layer after layer, so ferreting out the money 
still there is a very difficult task.
    Mr. Shays. Tell the committee the key players that you 
think that we need to see, and I will send my staff, and if 
necessary, I will go to those people and say, this cannot go 
on. We will go to the appropriators and ask them.
    Mr. Money. Yes, sir. Clearly this is not the security 
people in the services and so forth. This is either the head of 
the agency or the comptroller of that agency.
    Mr. Shays. Tell me some of the agencies. I would think one 
of the best things that you have got going for you to speed up 
the process is that if you are not giving us enough cases to 
come in, we are going to not have you have clearance--trigger 
that in a little sooner.
    Mr. Money. Yes, sir. The only leverage we have is what Bill 
Leonard said.
    Mr. Shays. If you do it all at once, they will say that is 
absurd, but if you phase it in.
    Mr. Money. You have hit upon an important issue, and that 
is, it is the responsibility of whoever is issuing the 
clearance to pay for it for that service.
    Mr. Shays. Right.
    Mr. Money. That has been in my view part of the reason the 
not-to-be, yet-to-be submitted backlog has gone from 500,000 to 
300,000; they say maybe I don't need that clearance for that 
person. I think that has helped.
    Mr. Shays. How much do they have to pay?
    Mr. Money. It is roughly $2,500 for a top secret clearance 
and about $1,000 for a secret clearance on average.
    The other thing that you have already got, the watermelon 
is passing through the snake.
    Mr. Shays. Just tell me where the head is.
    Mr. Money. The head is going south.
    The adjudication----
    Mr. Shays. My staff drew a picture of that and I thought, 
there is no way I am going to describe that. If you want to be 
risky enough to go through that, feel free.
    Mr. Money. The watermelon, some are stuck in here and it is 
passing down the digestive tract. Where the adjudicators are 
could be the next major milestone, which is totally out of our 
control.
    Mr. Shays. I understand.
    Mr. Leonard. I need to make sure that I didn't leave you 
with a misimpression.
    Adjudications are decentralized within a department. Every 
one of the services does their own. There are about eight or 
nine activities that do this. Most of the services are keeping 
up. In one particular case, a service has not kept up.
    Mr. Shays. Is that Army?
    Mr. Leonard. It is Navy, sir. Frankly, there is a history 
in terms of why, but they have to rebuild their adjudication 
facility. The reason that the arrow is going left for 
adjudications, it is principally because of that one service. 
Although they have identified a get-well plan and are putting 
the resources, they need to train these folks. I meet with 
those folks every few months to review their progress.
    Mr. Shays. Are they keeping that quiet so their top people 
do not know about that?
    Mr. Leonard. Up to 6 months ago that may have been the 
case. But I know in particular in the Navy's case, senior 
leadership at the highest levels became engaged. They did 
identify the resources. They are being plussed up now with both 
reservists and civil service folks, and the only remaining 
impediment before they begin to turn around is to train them. 
There is that senior-level awareness. The single point of 
contact in the Navy is in the comptroller shop, which is very 
fortuitous. That simple act of having someone accountable has 
paid dividends.
    Mr. Lieberman. Might I add that we issued an audit report 
that specifically took the Navy to task for not having updated 
workload estimates for its adjudicators; and the Navy resisted, 
but we have had a successful resolution. We are not talking 
large numbers of people or a lot of dollars here for these 
adjudication facilities, so it is a real shame if anybody 
understaffs them, because we are only talking about a dozen or 
two dozen people in terms of not allowing this to become a clog 
in the pipeline.
    Mr. Shays. You were giving me the feeling that we were 
getting this from hundreds of agencies. Do we only have a few 
with adjudication issues?
    Mr. Leonard. If a service member is stationed in Korea, for 
example, he or she literally will have to sit at a computer in 
Korea, complete that electronic personnel security 
questionnaire, give it to their local security manager--and 
there are thousands of those individuals--and it is from them 
that it goes to DSS or OPM, as appropriate. There is no 
centralized focal point for the services on the front end. It 
is when DSS or OPM is done with it that it does go to a central 
point within the service, namely their adjudication activity, 
and they are the one who reviews the results and makes the 
decision whether or not to grant.
    Mr. Shays. If somebody from FEMA puts in a request, they 
don't have an adjudicator?
    Mr. Leonard. Within DOD, all of the services have their own 
adjudication facilities. For Defense agencies such as Mr. 
Lieberman's, he does not do his own adjudications; they have 
been centralized under the auspices of Washington headquarters 
services. They adjudicate for my staff, for Mr. Lieberman's 
staff.
    Mr. Shays. So some agencies have someone else who does the 
adjudication?
    Mr. Leonard. Right. The intel agencies such as DIA, NSA, 
NRO, they do their own as well.
    Mr. Shays. OK. I am told there are nine of them?
    Mr. Leonard. Yes, sir. I'm sorry, eight.
    Mr. Shays. And everyone comes under someone?
    Mr. Leonard. Yes, sir.
    Mr. Shays. Does Congress come under one of those?
    Mr. Leonard. Washington Headquarters Services does the 
adjudications for the staffers that DOD are responsible for.
    Mr. Shays. Let me ask--Mr. Halloran, majority counsel, may 
have some questions.
    Mr. Halloran. Thank you.
    Mr. Money, could you tell us what you found inaccurate in 
this report?
    Mr. Money. Thank you for that opportunity, and I am going 
to ask Mr. Lieberman to expand on this.
    It is represented as DOD wide; it is specifically DSS only. 
It is represented as more than the SBI-type clearances, but yet 
it is focused on that part. I think there are a couple of 
comments about speed or the magnitude of the issues, the 
number--is quantity more important than quality. That is 
clearly not my point of view.
    There are several things written that were not vetted. 
Well-intentioned people wrote it, but they were not vetted 
through the proper channels so we could get the accuracy. That 
is what I regretted about having that out before we had that 
opportunity.
    Mr. Halloran. I hear spin versus spend. That information is 
consistent with what went before and not necessarily telling us 
where we need to go.
    Mr. Leonard. When we were here last September, we reported 
to the committee that a good part of our plan encompassed off-
loading work from DSS to OPM. So, therefore, any assessment of 
that plan would have to take into account what OPM is doing. 
And so, for example, for the first quarter OPM did, I believe 
close to 28,000 investigations for the Department of Defense, 
and if they were factored into case completion times, for 
example, what it would have shown is that Department-wide case 
completion times to include SBIs actually decreased in the 
first quarter, and decreased by as much as 10 percent.
    Not only that on page 10, and I don't want to be picayune, 
but I want to emphasize that it was a draft report, and as 
such, did not have an opportunity to get a thorough scrubbing. 
There is reference on page 10 to the first time in December, 
input exceeded output, but yet the pending increased. That is a 
non sequitur.
    In reality, the output began exceeding the input back in 
October, the first month of this plan. Since October 1, for 15 
out of the 20 weeks--this is going through the middle of 
February--for 15 out of the 20 weeks, output exceeded input or 
75 percent of the time. As a matter of fact, to date, until the 
middle of October, output has exceeded input by 17.5 percent, 
and you don't get that by reading the report.
    So that is--it is unfortunate that it is incomplete because 
when people look at it, it is interpreted as the state of the 
Department's plan, but yet by the fact that our plan is all-
encompassing, as that report card has indicated, it gives the 
impression that Department-wide the plan is not going in the 
right direction.
    Don't get me wrong. I am not saying that we are where we 
want to be. We recognize that we are not on a glide path, so 
from that point of view, the fundamental thing you get out of 
that report is accurate. And we are very mindful of that and we 
are focused on that.
    Mr. Shays. Let me interrupt. That statement is an 
incredible statement because it backs up what Mr. Lieberman has 
said. You said the basic thrust of the report is right?
    Mr. Leonard. Right.
    Mr. Shays. The glide path is not where you want it to be?
    Mr. Leonard. Everything would need to be green to get to 
where we want to be, and we are not and we are working like the 
dickens to get there.
    Mr. Shays. Working like the dickens. One thing that you all 
have convinced me of, you are working like the dickens, but I 
dread a hearing 4 months or 5 months from now where we are 
going to be saying the same thing. I dread that, and I think 
that is where we are headed, sadly.
    Mr. Money. If I can say, I don't dread that. I think you 
ought to call one.
    Mr. Shays. It is already on the calendar. But I dread 
coming and have nice people who are working hard tell me the 
same bad story, because it is.
    Mr. Money. I want results, and in what we outlined for you 
in the written statement, there are some other things that we 
need your help on. Getting--DSS getting the same priority, 
getting local and State governments to give them data as if the 
FBI wrote them would help them. They no longer have any more 
advantage over Wal-Mart or McDonald's coming in when they do an 
investigation for a new employee. It is that kind of help that 
we need.
    Mr. Shays. We are going to ask the four of you to come sit 
with majority and minority staff, and you map out how we can be 
helpful to the other agencies.
    Mr. Halloran. If you look at pages 5 and 6 of the report, 
initial top secret and top secret periodic investigations, are 
those characterizations of the data at the time rendered 
accurate, and what are we to make of them in terms of the 
capacity of DSS to meet its plan?
    Mr. Leonard. With respect to how they pertain to DSS, yes, 
sir, they are accurate.
    Mr. Money. When they take that and extrapolate, that is the 
entire department going through mission degradation; when they 
omit the other part, that is the misrepresentation.
    Mr. Halloran. I understand that. I didn't read it to 
characterize the Department.
    Mr. Money. It says on the front the function of the whole 
Department.
    Mr. Halloran. Our concern here is the capacity of DSS to 
handle the mission given to it, and giving OPM more cases is an 
option and giving them more complex cases is an option, I 
understand. But for purposes of this, and understanding when 
DSS is meant to do the job without OPM help, what does this 
tell us? Why are case-processing times getting longer?
    Mr. Leonard. One of the fundamental problems that we have 
in the first quarter, and one of the things that is getting in 
the way of General Cunningham and his folks doing his job, he 
is getting work since the first of October that he was not 
intended to. We have to work with the services. Sometimes it is 
as simple as people following instructions.
    Mr. Halloran. Are those the cases that are causing longer 
case-processing times, though?
    Mr. Leonard. It does not help. Just like there is no one 
single silver bullet that will resolve this, there is no one 
factor that is causing the problem. Certainly for--DSS getting 
more cases than it was intended for them to get does not help.
    Mr. Halloran. It may help their throughput if they are 
getting the easy ones.
    Mr. Leonard. This reference to ``easy ones,'' I am not too 
sure what that means. When you look at this from a readiness 
point of view, people say your output exceeds your input for 
the first quarter, but it is the easy ones. Those easy ones 
deal principally with recruits who are waiting to go to 
advanced training. If they do not have their tickets in place, 
that is a readiness issue. That is as much a----
    Mr. Halloran. But if you analyze those cases, the 
likelihood is that they would take less time; isn't that 
correct?
    General Cunningham. I think it is important to understand 
that the so-called ``easy cases'' in our situation would be the 
600 a day that we would get from the entrants command. The one 
thing that has stayed very close to schedule is that part. So 
those that are over tend to be the more difficult work. We are 
not whining about that, it is just a fact that it does have an 
impact.
    Mr. Halloran. Is it your testimony that you have some basis 
to conclude that the cases that you are getting, that you 
should be getting, that should be going to OPM, are in some 
measure the cause of your average case processing time going 
up?
    General Cunningham. Statistically, yes.
    Mr. Halloran. By volume or by type of case?
    General Cunningham. Both.
    Mr. Money. There is another point that is being missed.
    There is the lack in CCMS to do a prioritization. That is 
being fixed as another add-on to the software in April that 
will wash through the system, so by August there will not be 
this accumulation of 188,000 cases which have not worked their 
way through. So the prioritization will help the services once 
they prioritize. It will help General Cunningham process those 
cases first or second or third, or whatever the right order is.
    Mr. Halloran. We had a discussion at a prior hearing about 
the prioritization algorithm. How does that stand?
    General Cunningham. It is in use. It is primarily employed 
in routing work to contractors so that we try to give them the 
cases that are least likely to have trouble.
    Mr. Halloran. One more line of questioning here, which is 
on investigative standards.
    Some of the suggestions contained, the discussion time 
contained in appendices to the report we are discussing here, 
suggest an exemption or relaxation of investigative standards 
which would limit transferability of clearances, such as the 
increased use of interim clearances or a new category of cases 
closed pending which would not have to be adjudicated twice and 
might not be transferable to another agency complying with the 
interagency agreements.
    Could you address that issue?
    Mr. Money. I think that is a very good point. The use of 
interim clearances, to date, has been very useful, and national 
security has not suffered. Let me give you a statistic.
    We had issued 6,800 and something, so permit me to round 
that off to 7,000 interim clearances, only SCI. Of those, while 
the interim was issued, 25 out of 7,000 were then revoked; 22 
of those, the person was still a student so actually caused no 
national security. There were 3 cases out of 7,000 by 
observation and so forth that didn't create a problem. I think 
that is a very low number. Therefore, it is risk management.
    One of the things that we are trying to do now is do more 
interim clearances so we can eliminate more of this problem. 
This is in addition to the aperiodic business that we talked 
about. So there are some other things.
    The other one that could help the most is if you could lift 
or eliminate the cap on doing counterintelligence polygraphs 
where a cap today is 5,000 a year, we would like to do more 
than that. That would speed up the process.
    Mr. Shays. I don't understand that. Explain that.
    Mr. Leonard. DOD, since the late 1980's, has been under a 
congressionally imposed cap that limits us to more than 5,000 
CI-scope polygraph investigations. These are screening 
investigations, not if you have an issue to investigate. We are 
limited to more than 5,000. We apply this judiciously to our 
most sensitive programs.
    Mr. Shays. How would that help?
    Mr. Leonard. Basically it would allow us, for sensitive--
for your most sensitive programs, you are less willing to grant 
interims based solely on the records checks and things on those 
lines. A CI-scope polygraph examination, while not a silver 
bullet, will give you more of a foundation upon which to make 
the judgment, is it an acceptable risk to grant this person 
interim access to sensitive information.
    Mr. Money. In addition to that, I would like to have 
polygraphs applied to the investigators that are clearing an 
immense number of people. General Cunningham has requested to 
have 300 of his employees randomly polygraphed continuously. 
That bumps up against this 5,000 cap. If that cap got lifted, 
we could speed up a lot of interims with a higher degree of 
confidence.
    Mr. Shays. Thank you, Mr. Halloran.
    Does minority counsel have any questions?
    I will just ask a question. In your statement, Mr. Money, 
you say--and I would like to ask Mr. Lieberman to respond--Mr. 
Money, you state you need automated access to State and local 
government history records akin to that provided to law 
enforcement agencies.
    I want to know, why would this be necessary to do the job? 
Why do you think this would be helpful? Is this needed to do 
the job?
    Mr. Lieberman. This is the first I have heard about it, Mr. 
Chairman. I don't know enough about it to give you any 
substantive input other than to say, from what I heard from 
some of the remarks earlier, apparently we are having trouble 
getting information from local police records that we need in 
order to complete investigations. So if that coordination 
problem can be fixed in some way, it would help DSS and OPM do 
their investigations faster.
    Mr. Shays. Mr. Leonard.
    Mr. Leonard. Actually the Congress has helped us in the 
past in this regard. There has been quite a bit of investment, 
as I am sure you are aware, in automating local and State 
criminal history records; and much has been done to facilitate 
our access to those records.
    The one problem that we have is that we cannot access those 
records using only a name and identifier like a Social Security 
number. We have to submit fingerprint cards, which is a time-
consuming and expensive process. In those instances where we 
cannot access their automated records, we literally have to 
send an agent out, put shoe leather on the ground, go to the 
local police office, local sheriff's office, and stand in line.
    Mr. Shays. How could you do it if----
    Mr. Leonard. We would like to be able to do it without 
human intervention; and through the automated data base that 
General Cunningham has, we have to do local records checks 
wherever somebody has lived, worked or gone to school. All of 
that information is on the personnel history statement. The 
computer could send out requests.
    Mr. Shays. Is that done by other agencies?
    Mr. Leonard. Other agencies have the same difficulty we do. 
Law enforcement agencies can access this information using 
names and identifiers. We are required to provide fingerprint 
cards. And from the State and local law enforcement agencies, 
if they give information on Bill Leonard, they want to make 
sure that it is the Bill Leonard that I am interested in.
    Our response to that is, we have a very elaborate due 
process procedure, and we never take action against somebody 
based on information only from a record. If there is confusion 
of identification, we are sure that would come out.
    Mr. Shays. If someone is asking for a clearance, they 
should be willing to have their records checked. There may be 
more to that story.
    I would like you to think over the weekend and maybe have a 
meeting next week with my staff as to specific things we could 
do to help this cause because the work you are doing is 
important. This is a gigantic issue, and maybe we can be 
helpful.
    Mr. Leonard. Thank you, sir.
    Mr. Shays. I would like, Mr. Lieberman, for you to be 
involved in that as well.
    Mr. Lieberman. I would be pleased to.
    Mr. Shays. Is there any comment that any of you would like 
to make? Any question that we should have asked that you were 
geared to answer?
    Thank you all. I thank all four of you. This hearing is 
closed.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
